This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




                     REPORT OF INVESTIGATION
  UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

             OFFICE OF INSPECTOR GENERAL 




                                       Case No. OIG-534 




          Allegations of Improper Coordination Between the SEC 

               and Other Governmental Entities Concerning 

       the SEC's Enforcement Action Against Goldman Sachs & Co. 





                                      September 30, 2010 

                  REDACTION KEY

LE = 	Law Enforcement PrivilegelPotentially
      Harmful to Ongoing Litigation

PH = 	 Personal Identifying Information
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.


                                      Table of Contents

INTRODUCTION AND BACKGROUND ....................................................................... 1 

SCOPE OF THE OIG INVESTIGATION ......................................................................... 1 

I. 	     E-MAIL SEARCHES AND REVIEW OF E-MAILS ............................................ 1 

II. 	    DOCUMENT REQUESTS AND REVIEW OF RECORDS ................................. 2 

III.     TESTIMONY AND INTERVIEWS ...................................................................... 2 

RELEVANT STATUTES, RULES AND REGULATIONS ............................................. 6 

I. 	     DISCLOSURE OF NON-PUBLIC INFORMATION ............................................ 6 

II. 	    DUTY TO MAINTAIN INDEPENDENCE ........................................................ 11 

III. 	   DUTY TO GIVE ADVANCE NOTICE OF ENFORCEMENT ACTIONS 

         TO DEFENDANTS .............................................................................................. 12 

EXECUTIVE SUMMARY .............................................................................. ,............... 12 

RESULTS OF THE INVESTIGATION .......................................................................... 23 

I. 	     THERE IS NO EVIDENCE INDICATING THAT THE GOLDMAN 

         SACHS ACTION OR SETTLEMENT WAS INTENDED TO 

         INFLUENCE, OR WAS INFLUENCED BY, FINANCIAL 

         REGULATORY REFORM LEGISLATION ....................................................... 23 

II. 	    THERE IS NO EVIDENCE OF COORDINATION BETWEEN THE SEC 

         AND OTHER GOVERNMENTAL OR POLITICAL ENTITIES IN ITS 

         GOLDMAN SACHS ACTION ............................................................................ 27 

III. 	   THE OIG HAS NOT FOUND EVIDENCE DEMONSTRATING THAT 

         THE SEC SHARED INFORMATION ABOUT ITS GOLDMAN SACHS 

         INVESTIGATION OR ACTION WITH ANY NEWS ORGANIZATIONS 

         PRIOR TO THE FILING OF THE SEC'S COMPLAINT AGAINST 

         GOLDMAN SACHS ............................................................................................ 31 

IV. 	    THE SEC ENFORCEMENT INVESTIGATION OF GOLDMAN SACHS' 

         SALE OF THE ABACUS COLLATERALIZED DEBT OBLIGATION ........... 33 

         A. 	      Internal Disagreements Arose in Fall 2009 Concerning Which 

                   Individuals Should Testify and Which Individuals Should Receive 

                   Wells Notices ............................................................................................ 34 

         B. 	      In November 2009, the Goldman Matter was Scheduled for the 

                   December 17, 2009 Commission Meeting ................................................ 35 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        C. 	     On December 8, 2009, the Enforcement Staff Removed the 

                 Goldman Matter from the Commission Calendar in Order to Take 

                 the Testimony of a Goldman Manager ..................................................... 35 

        D. 	     Concerned About a Senate Inquiry and a News Article About 

                 Goldman's CDO Transactions, the SEC Staff Rescheduled the 

                 Goldman Matter for a January 28, 2010 Commission Meeting 

                 After Taking a Goldman Manager's Testimony ....................................... 37 

        E. 	     After Removing the Goldman Matter From the January 

                 Commission Calendar in Order to Conduct Further Investigatory 

                 Work, the Enforcement Staff Rescheduled the Matter for the April 

                 14,2010 Commission Calendar.. .............................................................. 43 

                 1. 	      On January 27, 2010, the Enforcement Staff Removed the 

                           Matter from the Commission Calendar. ........................................ 43 

                 2. 	      The Enforcement Staff Took Further Investigative Steps 

                           and Analyzed a Goldman Manager's Potential Liability .............. 45 

                 3. 	      After Concluding its Investigative Steps, the Enforcement 

                           Staff Rescheduled the Goldman Matter for the April 14, 

                           2010 Commission Calendar .......................................................... 46 

                 4. 	      The SEC Staff Tool.<: Steps to Ensure that Pauline Calande, 

                           on a Detail to the Senate Permanent Subcommittee on 

                           Investigations from the SEC, Did Not Reveal Information 

                           Regarding the SEC's Investigation to the Senate ......................... 47 

V. 	     ON FRIDAY APRIL 16,2010, THE COMMISSION FILED ITS 

         COMPLAINT AGAINST GOLDMAN SACHS ................................................. 48 

        A. 	     The Commission Delayed its Filing Date from Thursday April 15 

                 to Friday April 16...................................................................................... 48 

        B. 	     The SEC's Action Was Released on the Same Day as the OIG's 

                 Report Concerning the SEC's Response to Concerns Regarding 

                 Robert Allen Stanford's Alleged Ponzi Scheme .... ;.................................. 53 

        C. 	     The Enforcement Staff Did Not Notify Goldman Sachs of 

                 Commission Approval or Impending Action Until After Filing the 

                 Complaint in Court ................................................................................... 57 

        D. 	     The SEC's Decision to File the Action Against Goldman Sachs
                 During Trading Hours With No Advance Notice to Goldman Sachs
                 or NYSE Regulation Resulted in Market Volatility and Concerned
                                  Regulation .................................................................. 65 



                                                          11
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

VI.       ON JULy 15,2010, THE COMMISSION FILED AND ANNOUNCED A
          PROPOSED SETTLEMENT WITH GOLDMAN SACHS ................................ 71 

CONCLUSION ................................................................................................................. 76 





                                                              III
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                                REPORT OF INVESTIGATION 


         UNITED STATES SECURITIES AND EXCHANGE COMMISSION 

                    OFFICE OF INSPECTOR GENERAL 


     Allegations of Coordination Between the SEC and Other Governmental Entities 

        Concerning the SEC's Enforcement Action Against Goldman Sachs & Co. 


                                         Case No. OIG-534 


                          INTRODUCTION AND BACKGROUND 


        On April 23, 2010, the Securities and Exchange Commission ("SEC" or
"Commission") Office ofInspector General ("OIG"), in response to a written request
from United States Representative Darrell Issa and other members of the House of
Representatives, opened an investigation into allegations by Representative Issa and other
members of the House of Representatives that SEC employees communicated or
coordinated with the White House, Members of Congress, or Democratic political
committees concerning the bringing, or the timing of bringing, an action against Goldman
Sachs & Co. ("Goldman"), prior to the April 16, 2010 filing by the SEC Division of
Enforcement of the SEC's complaint against Goldman, in order to affect debate of the
fmancial regulatory reform legislation pending before the United States Senate.
Congressman Issa and other members of Congress also alleged that SEC employees may
have had communications with the New York Times concerning the SEC complaint
against Goldman prior to the filing of the complaint.

        On July 22, 2010, Congressman Issa requested that the OIG broaden its
investigation to examine whether the timing of the Commission's proposed settlement
with Goldman related to either the financial regulatory reform legislation passed by the
United States Senate the same day or to the minimization of leaks of information to the
media concerning the proposed settlement. The OIG expanded its investigation to
examine these issues as well.

                           SCOPE OF THE OIG INVESTIGATION

I.       E-MAIL SEARCHES AND REVIEW OF E-MAILS

        On April 26, 2010, the OIG issued an agency-wide document retention notice,
instructing employees to preserve all documents related to the complaint filed against
Goldman on April 16, 2010, and the Division of Enforcement's related investigation of
Goldman.

       The OIG made numerous requests to the SEC's Office ofInformation Technology
("OIT") for the e-mails of current and former SEC employees for various periods of time
pertinent to the investigation. The e-mails were received, loaded onto computers with
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.

specialized search tools and searched on a continuous basis throughout the course of the
investigation.

       In all, the OIG received from OIT e-mails for a total of 64 current or former SEC
employees for the time period pertinent to the investigation. These included: 11
employees of the Office of the Chairman, 17 employees of the Offices of the
Commissioners, 14 Headquarters Division of Enforcement ("Enforcement") employees,
four Headquarters Office of Legislative Affairs employees, eight Headquarters Office of
Public Affairs employees, four Office of the General Counsel employees, one Office of
the Secretary employee, four Fort Worth Regional Office employees, and one New York
Regional Office employee. The OIG estimates that it obtained and searched over 3.4
million e-mails during the course of its investigation.

II.     DOCUMENT REQUESTS AND REVIEW OF RECORDS

       The OIG requested information from The New York Times Company and
Bloomberg Media concerning whether, when, and how these organizations first learned
about the SEC's action against Goldman.

        In addition, the OIG reviewed the following items: (1) the April 1, 2010 Action
Memorandum seeking authority to file a civil action against Goldman and Fabrice
Tourre, a Goldman Vice President; (2) drafts of this Action Memorandum; (3) the HUB
Case Report for the Abacus CDO 2007-ACI investigation (HO-I0911); (4) the SEC's
Name Relationship Search Index ("NRSI")! Report for the Abacus CDO 2007-ACI
investigation; (5) the minutes and audio recording ofthe April 14, 2010 Closed
Commission Meeting at which the Commission authorized the Goldman action; (6) the
civil complaint filed by the SEC against Goldman on April 16, 2010; (7) the SDNY's
Electronic Case Filing System for the SEC's action against Goldman; and (8) telephone
records for Goldman's counsel, Sullivan & Cromwell LLP.

III.    TESTIMONY AND INTERVIEWS

        The OIG took the sworn testimony of32 witnesses and interviewed five other
individuals with knowledge of facts or circumstances surrounding the SEC's
investigation of Goldman, the SEC's filing of its complaint against Goldman, and/or the
SEC's settlement with Goldman.

         SEC Inspector General H. David Kotz personally led the questioning in all of the
sworn testimony of witnesses in the .        .   Kotz also led the .      . . team
for this ROI, which include
• • • Senior



         NRSI is used by the SEC's Enforcement staffto research whether a person or entity is involved in
an open investigation.


                                                    2
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



       The 010 conducted testimony on-the-record and under oath of the following 32
individuals:
           Ass! Ch LI! Cnsl 1
    1. 	                   Assistant Chief Litigation Counsel, Division of Enforcement, 

            Securities and Exchange Commission; taken on July 6, 2010 

            Tr."). Excerpts of Testimony Transcript attached as Exhibit 1. 


    2. 	 Cheryl Scarboro, Chief, Foreign Corrupt Practices Act Unit, Division of 

         Enforcement, Securities and Exchange Commission; taken on July 7, 2010 

         ("Scarboro Testimony Tr."). Excerpts of Testimony Transcript attached as 

         Exhibit 2. 

           SrCnsl1
    3. 	                    Senior Counsel, Division of Enforcement Securities and 

            Exchange Commission; taken on July 13, 2010 ( ' _ Testimony Tr."). 

            Excerpts of Testimony Transcript attached as Exhibit 3. 


    4. 	 Unidentified Senior Counsel, Division of Enforcement, Securities and Exchange 

         Commission; taken on July 14,2010 ("Unidentified Senior Counsel Testimony 

         Tr."). Excerpts of Testimony Transcript attached as Exhibit 4. 

            SrCnsl2
    5. 	                     Senior Counsel, Division of Enforcement, Securities and 

            Exchange Commission; taken on July 15,2010 ('_Testimony Tr."). 

            Excerpts of Testimony Transcript attached as Exhibit 5. 


    6. 	 Reid Muoio, Deputy Chief, Structured and New Products Unit, Division of 

         Enforcement, Securities and Exchange Commission; taken on July 20,2010 

         ("Muoio Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 

         6.

    7. 	 Pauline Calande, Counsel to the Director and Deputy Director of the Division of 

         Enforcement, Division of Enforcement, Securities and Exchange Commission; 

         taken on July 23,2010 ("Calande Testimony Tr."). Excerpts of Testimony 

         Transcript attached as Exhibit 7. 


    8. 	 Joan McKown, former Chief Counsel, Division of Enforcement, Securities and 

         Exchange Commission; taken on July 26,2010 ("McKown Testimony Tr."). 

         Excerpts of Testimony Transcript attached as Exhibit 8. 

           OGCAtty
    9. 	                                                          Securities and Exchange 

            Commission; taken on July 26, 2010                 Testimony Tr."). Excerpts of 

            Testimony Transcript attached as Exhibit 9. 


    1O. Timothy Henseler, Deputy Director, Office of Legislative and Intergovernmental 

        Affairs, Securities and Exchange Commission; taken on July 27,2010 ("Henseler 

        Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 10. 


                                                    3


                                                                                                          -'.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



    11. Julie Davis, Deputy Director, Office of Legislative and Intergovernmental Affairs,
        Securities and Exchange Commission; taken on July 27,2010 ("David Testimony
        Tr."). Excerpts of Testimony Transcript attached as Exhibit 11.

    12. Anne-Marie Kelley, Deputy Director, Office of Legislative and Intergovernmental
        Affairs, Securities and Exchange Commission; taken on July 27,2010 ("Kelley
        Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 12.
        ENF Supv 1
    13. 	                                            Division of Enforcement
         Securities and Exchange Commission; taken on July 29, 2010 ( ' _
        Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 13.

    14. John Nester, Director, Office of Public Mfairs, Securities and Exchange
        Commission; taken on July 30, 2010 (''Nester Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 14.

    15._                          Office of Public Affairs, Securities and Exchange
     Commission; taken on July 30, 2010             ('1iII
                                                  Testimony Tr."). Excerpts of
     Testimony Transcript attached as Exhibit 15.

    16. Eric Spitler, Director, Office of Legislative and Intergovernmental Affairs,
        Securities and Exchange Commission; taken on August3, 2010 ("Spitler
        Testimony Tr."). ,Excerpts of Testimony Transcript attached as Exhibit 16.

    17. Ricardo Delfm, Special Counsel to the Chairman, Securities and Exchange
        Commission; taken on August 3, 2010 ("Delfm Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 17.

    18. Kayla Gillan, Deputy Chief of Staff, Office of the Chairman, Securities and
        Exchange Commission; taken on August 4, 2010 ("Gillan Testimony Tr.").
        Excerpts of Testimony Transcript attached as Exhibit 18.

    19. Didem Nisanci, Chief of Staff, Office of the Chairman, Securities and Exchange
        Commission; taken on August 4,2010 (''Nisanci Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 19.

    20. Richard Klapper, Partner, Sullivan & Cromwell LLP; taken on August 6, 2010
        ("Klapper Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit
        20.

    2l. Kathleen Casey, Commissioner, Securities and Exchange Commission; taken on
        August 9, 2010 ("Casey Testimony Tr."). Excerpts of Testimony Transcript
        attached as Exhibit 21.



                                                    4

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

    22. Lorin Reisner, Deputy Director, Division of Enforcement, Securities and
        Exchange Commission; taken on August 10,2010 ("Reisner Testimony Tr.").
        Excerpts of Testimony Transcript attached as Exhibit 22.

    23. Mary Schapiro, Chairman, Securities and Exchange Commission; taken on
        August 11,2010 ("Schapiro Testimony Tr."). Excerpts of Testimony Transcript
        attached as Exhibit 23.

    24. Stephen Cohen, Senior Advisor to the Chairman, Securities and Exchange
        Commission; taken on August 11,2010 ("Cohen Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 24.

    25. Myron Marlin, Director of Communications, Securities and Exchange
        Commission; taken on August 12,2010 ("Marlin Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 25.
             ENF Empl1
    126. 	              Senior Communications Adviser, Division of
         Securities and Exchange Commission; taken on August 12,2010
         Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit 26.

    27. Robert Khuzarni, Director, Division of Enforcement, Securities and Exchange
        Commission; taken on August 13, 2010 ("Khuzami Testimony Tr."). Excerpts of
        Testimony Transcript attached as Exhibit 27.

    28. Scott Friestad, Associate Director, Division of Enforcement, Securities and
        Exchange Commission; taken on August 13,2010 ("Friestad Testimony Tr.").
        Excerpts ofTestiinony Transcript attached as Exhibit 28.

    29. Luis Aguilar, Commissioner, Securities and Exchange Commission; taken on
        August 17, 2010 ("Aguilar Testimony Tr."). Excerpts of Testimony Transcript
        attached as Exhibit 29.

    30. Kenneth Lench, Chief, Structured and New Products Unit, Division of
        Enforcement, Securities and Exchange Commission; taken on August 19, 2010
        ("Lench Testimony Tr."). Excerpts of Testimony Transcript attached as Exhibit
        30.

    31. Troy Paredes, Commissioner, Securities and Exchange Commission; taken on
        August 19,2010 ("Paredes Testimony Tr."). Excerpts of Testimony Transcript
        attached as Exhibit 31.

    32. Elisse Walter, Commissioner, Securities and Exchange Commission; taken on
        August 27, 2010 ("Walter Testimony Tr."). Excerpts of Testimony Transcript
        attached as Exhibit 32.



                                                    5

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the In'spector General's approval.

        The OIG also conducted interviews of the following five individuals with relevant
expertise and/or knowledge of information pertinent to the investigation:
            Clerk
     1. 	                       Financial Clerk at the United States District Court for the
             Southern District ofNew York ("SDNY"); conducted on April 27, 2010 ("SDNY
             Interview Memorandum"). Memorandum of Interview attached as Exhibit 33.
            SDNY Empl1
     2. 	                                        Docket Services, SDNY; conducted on
             April 27, 2010 ("SDNY Interview Memorandum"). Memorandum of Interview
             attached as Exhibit 33.
            SDNY Empl2
     3. 	                ,Financial Administrator, SDNY; conducted on April 27, 2010
             ("SDNY Interview Memorandum"). Memorandum ofInterview attached as
             Exhibit 33.

     4. 	                              NYSE Regulation; conducted on June 21,2010
             ('      Interview Memorandum"). Memorandum of Interview attached as
             Exhibit 34.
             csa Faculty
     5. 	                  a member of the faculty of the Chicago Board of 

             Exchange's Options Institute; conducted on August 26,2010 (' 

             Memorandum"). Memorandum of Interview attached as Exhibit 35. 



                      RELEVANT STATUTES, RULES AND REGULATIONS

I.           DISCLOSURE OF NON-PUBLIC INFORMATION

            The Securities Exchange Act of 1934 states:

                           (a) For purpose of section 552 of title 5 the term "records"
                           includes all applications, statements, reports, contracts,
                           correspondence, notices, and other documents filed with or
                           otherwise obtained by the Commission pursuant to this
                           chapter or otherwise.

                           (b) It shall be unlawful for any member, officer, or
                           employee of the Commission to disclose to any person
                           other than a member, officer, or employee of the
                           Commission, or to use for personal benefit, any information
                           contained in any application, statement, report, contract,
                           correspondence, notice, or other document filed with or
                           otherwise obtained by the Commission (1) in contravention
                           of the rules and regulations of the Commission under
                           section 552 of title 5, or (2) in circumstances where the


                                                        6

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 Commission has determined pursuant to such rules to
                 accord confidential treatment to such information.

                 (c) The Commission may, in its discretion and upon a
                 showing that such information is needed, provide all
                 "records" (as defmed in subsection (a) of this section) and
                 other information in its possession to such persons, both
                 domestic and foreign, as the Commission by rule deems
                 appropriate if the person receiving such records or
                 information provides such assurances of confidentiality as
                 the Commission deems appropriate.

15 U.S.C. § 78x.

        The Commission's Regulation Concerning Conduct of Members and Employees
and Former Members and Employees ofthe Commission (hereinafter "Conduct
Regulation"), at 17 C.F.R. § 200.735-1 et seq., sets forth the standards of ethical conduct
required of Commission members (i.e., Commissioners) and employees (hereinafter
referred to collectively as employees). The Conduct Regulation states that an employee
of the Commission shall not:

                 Divulge to any unauthorized person or release in advance
                 of authorization for its release any nonpublic Commission
                 document, or any information contained in any such
                 document or any confidential information: (A) in
                 contravention of the rules and regulations of the
                 Commission promulgated under 5 U.S.c. 552, 552a and
                 552b; or (B) in circumstances where the Commission has
                 determined to accord such information confidential
                 treatment.

17 C.F.R. § 200.735-3(b)(2)(i). The Conduct Regulation further states:

                 Information or documents obtained by the Commission in
                 the course of any investigation or examination, unless made
                 a matter of public record, shall be deemed non-public, but
                 the Commission approves the practice whereby officials of
                 the Divisions of Enforcement, Corporation Finance, Market
                 Regulation and Investment Management and the Office of
                 International Affairs at the level of Assistant Director or
                 higher, and officials in Regional Offices at the level of
                 Assistant Regional Director or higher, may engage in and
                 may authorize members of the Commission's staff to
                 engage in discussions with persons identified in § 240.24c­
                 1(b) of this chapter concerning information obtained in


                                                    7

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 individual investigations or examinations, including formal
                 investigations conducted pursuant to Commission order.

17 C.F.R. § 203.2. The Conduct Regulation states: "Unless otherwise ordered by the
Commission, all formal investigative proceedings shall be non-public." 17 C.F.R.
§ 203.5.

The Conduct Regulation also states:

                 Information or documents obtained by officers or
                 employees of the Commission in the course of any
                 examination or investigation pursuant to section 17 (a) (48
                 Stat. 897, section 4,49 Stat. 1379; 15 U.S.C. 78q(a)) or
                 21(a) (48 Stat. 899; 15 U.S.C. 78u(a)) shall, unless made a
                 matter of public record, be deemed confidential. Except as
                 provided by 17 CFR 203.2, officers and employees are
                 hereby prohibited from making such confidential
                 information or documents or any other non-public records
                 of the Commission available to anyone other than a
                 member, officer or employee of the Commission, unless the
                 Commission or the General Counsel, pursuant to delegated
                 authority, authorizes the disclosure of such information or
                 the production of such documents as not being contrary to
                 the public interest.

17 C.F.R. § 240.0-4. The Conduct Regulation also states:

                 (a) For purposes of this section, the term "nonpublic
                 information" means records, as defmed in Section 24(a) of
                 the Act, and other information in the Commission's
                 possession, which are not available for public inspection
                 and copying.

                 (b) The Commission may, in its discretion and upon a
                 showing that such information is needed, provide nonpublic
                 information in its possession to any of the following
                 persons if the person receiving such nonpublic information
                 provides such assurances of confidentiality as the
                 Commission deems appropriate:

                 (1) A federal, state, local or foreign government or any
                 political subdivision, authority, agency or instrumentality
                 of such government ...

17 C.F.R. § 240.24c-l.


                                                    8

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Securities and Exchange Commission Rule 19-1 states:

                 This regulation sets forth the Securities and Exchange
                 Commission's (SEC) policy on disclosing non-public
                 information developed in the course of its investigations,
                 inspections and examinations (or otherwise) either to
                 conduct those activities or to assist a person to whom
                 disclosure may be made under Rule 24c-l [17 CFR
                 240.24c-l]. This regulation is promulgated to assist in the
                 effective and efficient discharge of the SEC's
                 administrative, examination, enforcement, and oversight
                 responsibilities, and is intended to facilitate the SEC's
                 investigations and examinations and its cooperation with
                 those persons to whom access may be granted, including
                 State, Federal and Foreign Governmental authorities. It is
                 not intended to benefit, nor does it confer any rights upon
                 any individual or organization. This regulation is based on
                 Section 24(c) of the Securities Exchange Act of 1934 [15
                 U.S.C. 78x(c)]; Rule 24c-l; Rule 2 of the SEC's Rules
                 Relating to Investigations [17 CFR 203.2]; and the SEC's
                 general rulemaking authority under the statutes it
                 administers.

                  1.      Policy.

                          a. Various SEC rules prohibit disclosure by its
                 officers and employees of information and documents or
                 other non-public records of the SEC obtained in the course
                 of any examinations or investigations, unless the SEC
                 authorizes or approves the disclosure of such information
                 or documents. In certain cases, however, the SEC has
                 authorized its staff to discuss, and grant access to, materials
                 in its examination and enforcement files and other non­
                 public records.

                          b. The prohibitions against use of non-public
                 information or documents without specific authorization or
                 approval by the SEC does not apply to the use of such
                 materials as necessary or appropriate by members of the
                 staff in pursuing SEC investigations or examinations, or in
                 the discharge of other official responsibilities. For
                 example, documents obtained from a registered entity
                 during an examination or from a witness may be used in the
                 examination of other witnesses or submitted for document
                 analysis. Similarly, testimony of a witness may be used in


                                                    9
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 examining other witnesses. That is, such information may
                 be used to facilitate the development of SEC matters.

                         c. When the SEC authorizes the institution of
                 actions, the staff is authorized to use such non-public
                 materials in the action. When the SEC refers matters to the
                 Department of Justice, or when access is granted to non­
                 public information or documents to any person identified in
                 Rule 24c-l, the staff also is authorized to render such
                 assistance as may be required for the use of the information
                 or documents by those to whom access is granted. When
                 requests for non-public materials are made during litigation
                 by respondents or defendants, or under other
                 circumstances, and the staff is in doubt as to the propriety
                 of disclosing such material, it may present such matters to
                 the SEC for appropriate advice and authorization.

                 2.       Responsibility and Authorization.

                         a. Officials in the Divisions of Enforcement,
                 Corporation Finance, Market Regulation and Investment
                 Management and the Offices of International Affairs and
                 Compliance Inspections and Examinations at or above the
                 level of Assistant Director; officials in Regional Offices at
                 or above the level of Assistant Regional Director; and
                 officials in District Offices at or above the level of
                 Assistant District Administrator are authorized to act in
                 matters covered in this regulation.

                         b. For the purpose of this regulation, the term "SEC
                 officials" means those staff members designated in
                 paragraph 2a.

                 3.       Confidential Nature ofInformation.

                         If public disclosure of information given to a person
                 under Rule 2 or Rule 24c-l may interfere with enforcement
                 or other activities of the SEC, the SEC official involved
                 will inform the recipient that the information must be
                 treated as confidential, and cannot be disclosed to the
                 public without authorization by the SEC or by an
                 appropriate SEC official. The SEC official will obtain
                 appropriate representations of confidentiality.




                                                   10
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        The Standards of Ethical Conduct for Employees ofthe Executive Branch,
5 C.F.R. Part 2635, states, "Employees shall not engage in fmancial transactions using
nonpublic Government information or allow the improper use of such information to
further any private interest." 5 C.F.R. § 2635.101(b)(3). These regulations also state:

                 (a) Prohibition. An employee shall not engage in a
                 fmancial transaction using nonpublic information, nor
                 allow the improper use of nonpublic information to further
                 his own private interest or that of another, whether through
                 advice or recommendation, or by knowing unauthorized
                 disclosure.

                 (b) Definition of nonpublic information. For purposes of
                 this section, nonpublic information is information that the
                 employee gains by reason of Federal employment and that
                 he knows or reasonably should know has not been made
                 available to the general public. It includes information that
                 he knows or reasonably should know:

                          (l) Is routinely exempt from disclosure under 5
                          U.S.C. 552 or otherwise protected from disclosure
                          by statute, Executive order or regulation;

                          (2) Is designated as confidential by an agency; or

                          (3) Has not actually been disseminated to the
                          general public and is not authorized to be made
                          available to the public on request.

5 C.F.R. § 2635.703.


II.     DUTY TO MAINTAIN INDEPENDENCE

       The Commission's regulations require its employees to perform their duties
impartially and independently, without regard to partisan or popular demands. 17 C.F.R.
§ 200.58 states:

                 [T]his is an independent Agency, and in performing their
                 duties, members should exhibit a spirit of firm
                 independence and reject any effort by representatives of the
                 executive or legislative branches of the government to
                 affect their independent determination of any matter being
                 considered by this Commission. A member should not be
                 swayed by partisan demands, public clamor or
                 considerations of personal popularity or notoriety.

                                                    11 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

       In addition, a criminal statute prohibits the use of appropriated monies to
influence Congress to adopt legislation:

                 No part ofthe money appropriated by any enactment of
                 Congress shall, in the absence of express authorization by
                 Congress, be used directly or indirectly to pay for any
                 personal services, advertisement, telegram, telephone,
                 letter, printed or written matter, or other device, intended or
                 designed to influence in any manner a Member of
                 Congress, a jurisdiction, or an official of any government,
                 to favor, adopt, or oppose, by vote or otherwise, any
                 legislation, law, ratification, policy, or appropriation.

18 U.S.C. § 1913.


III. 	 DUTY TO GIVE ADVANCE NOTICE OF ENFORCEMENT ACTIONS
       TO DEFENDANTS

       The SEC has issued an Administrative Regulation on "Press Relations Policies
and Procedures," which states in part:

                 Notification of Defendants. Every effort should be made
                 to avoid the possibility that defendants in an SEC
                 enforcement action first learn of the action when they read
                 about it in the newspapers or when they are called by a
                 reporter for comment about the SEC's complaint. The
                 division, regional or district office primarily responsible for
                 the filing of a particular complaint shall take all necessary
                 steps to see that the defendants and!or their counsel are
                 given timely advice concerning the action.

SECR 18-2 Section B(15)(c).


                                    EXECUTIVE SUMMARY

        On April 23, 2010, the SEC OIG, in response to a written request from United
States Representative Darrell Issa and other members of the House of Representatives,
opened an investigation into allegations that SEC employees communicated or
coordinated with the White House, Members of Congress, or Democratic political
committees concerning the bringing, or the timing ofbringing, an action against
Goldman, in order to affect debate of the financial regulatory reform legislation pending
before the United States Senate. Congressman Issa and other members of Congress also
alleged that SEC employees may have had communications with the New York Times
concerning its complaint against Goldman prior to the filing of the complaint.

                                                   12
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        On July 22,2010, Congressman Issa requested that the OIG broaden its
investigation to examine whether the timing of the Commission's proposed settlement
with Goldman related to either the financial regulatory reform legislation passed by the
United States Senate the same day, or was an effort to avoid further criticism in the press
concerning the proposed settlement. The OIG expanded its investigation to examine
these issues as well.

        In conducting its investigation, the OIG reviewed e-mails for a total of 64 current
or former SEC employees for the time period pertinent to the investigation. The OIG
estimates that it obtained and searched over 3.4 million e-mails during the course of its
investigation. The OIG took the sworn testimony of 32 witnesses and interviewed five
other individuals with knowledge of facts or circumstances surrounding the SEC's
investigation of Goldman, the SEC's filing of its complaint against Goldman, and/or the
SEC's settlement with Goldman.

        The broad conclusions of the OIG investigation are as follows. The OIG has not
found evidence indicating that the SEC's investigation of, or its action against, Goldman
was intended to influence, or was influenced by, fmancial regulatory reform legislation.
The OIG found that the investigation's procedural path and timing was governed
primarily by decisions relating to the case itself, as well as concerns about: (1) facts
surrounding the investigation's subj ect matter being publicized prior to the SEC filing its
action; (2) maintaining a relationship with the New York State Attorney General
("NYAG"); and (3) maximizing and shaping positive press coverage.

        The OIG analyzed in great detail the information found relating to each major
decision made by the staff in connection with the Goldman investigation, the Goldman
civil action, and its timing. The OIG did not find fmancial regulatory reform legislation
to have played a role in any of these decisions. In addition, we found no evidence that
anyone at the SEC ever mentioned the financial reform legislation in connection with the
Goldman investigation or in connection with the filing of its action against Goldman
prior to the April 16 filing.

         In addition, many SEC witnesses in this investigation, including Chairman
Schapiro, testified that they were surprised or "shocked" at the extent of the media
attention given to the Goldman action. This belief held by the SEC staff, which is
corroborated bye-mails, that the Goldman action might not have significant public
impact, much less the impact that it ultimately had, is another factor that argues against
the idea that the SEC or its staffwere attempting to influence fmancial regulatory reform
legislation.

        The OIG has not found evidence indicating that the SEC coordinated its
investigation of, or its action against, Goldman with the Executive Office of the
President, the White House, any White House employees, any Member of Congress, any
Congressional employee, the Democratic National Committee, the Democratic Senate
Campaign Committee, the Democratic Congressional Campaign Committee, or any of
their employees. The OIG has reviewed the e-mails of all ofthe SEC staff who played

                                                   l3
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.

any role in the Goldman action, including the Chairman, Chief of Staff, Deputy Chief of
Staff, Commissioners and their counsel, Enforcement staff, and the staff of the Office of
Legislative and Intergovernmental Affairs. The documents reviewed and testimony
taken, as described below, indicate no information about the SEC's investigation of
Goldman was shared with any outside entities or individuals prior to the SEC's April 16
action against Goldman.

        The OIG investigation also found no evidence indicating that the SEC
coordinated the settlement of its action against Goldllanwith the Executive Office of the
President, the White House, any White House employees, any Member of Congress, any
Congressional employee, the Democratic National Committee, the Democratic Senate
Campaign Committee, the Democratic Congressional Campaign Committee, or any of
their employees. The OIG found that settlement negotiations and approval proceeded
independently of any other governmental entities, any legislation, or any political entities.
The documents reviewed and testimony taken by the OIG give no indication of
coordination or communications between the SEC and other governmental entities
concerning the settlement before its public announcement.

        An April 20, 2010 letter from several Members of Congress on the House
Committee on Oversight and Government Reform to Chairman Schapiro specifically
asked whether SEC Chief of Staff Didem Nisanci or Deputy Chief of Staff Kayla Gillan
engaged in any communication with the Executive Office of the President, any Members
of or employees of Congress, or any Democratic political committees." Our investigation
found no evidence indicating that either the SEC Chief of Staff or Deputy Chief of Staff
communicated with anybody outside the SEC concerning the Goldman investigation or
the Goldman action prior to the SEC's complaint being filed on April 16. Our
investigation also found no evidence indicating that either Nisanci or Gillan played any
significant role in the SEC's investigation of Goldman or the authorization of the action
against Goldman.

        Further, after an extensive search of the e-mails of dozens of SEC employees who
may have played a role in, or known about, the Goldman action, and taking the sworn
testimony of dozens of these employees, the OIG has not found evidence demonstrating
that anyone at the SEC shared information about its Goldman investigation with the
media prior to the filing of its action against Goldman on April 16,2010.

        The summary details of the OIG investigation's findings are as follows. On
August 25,2008, the Headquarters Division of Enforcement staff opened an investigation
into potential misrepresentations by Goldman in connection with the structuring and
marketing of a collateralized debt obligation known as ABACUS 2007-ACI. On
September 2,2009, one of the senior Enforcement officials assigned to the investigation
wrote in an e-mail to others in the Enforcement Division that "the very quickest" he
expected the Goldman investigation to be on the Commission Calendar was that
November, and suggested that the target date for bringing an action against Goldman and
one individual be moved from September 2009 to December 2009.


                                                   14
 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office ofInspector General.
.Recipients of this report should not disseminate or copy it without the Inspector General's approval.




      On November 13, 2009, Enforcement reserved a spot on the Commission
Calendar for December 17, 2009 for the Commission to consider the Enforcement staffs
recommendation to sue Goldman and Goldman vice president Fabrice Tourre. On
November 24, 2009, Enforcement circulated the Action Memorandum for this
recommendation to other offices and divisions for comment and confirmed that the
Goldman matter would be on the Commission Calendar for December 17,2009.

       On December 8, 2009, the Division of Enforcement decided to withdraw the
Goldman matter from the calendar. The OIG found that the decision to withdraw the
Goldman case from the Commission Calendar was based upon a determination by the
Enforcement staff working on the investigation that they should take testimony from an
additional Goldman witness.

       After the testimony of the Goldman witness was taken, on January 4,2010,
Enforcement wrote to the Office of the Secretary, "We will be re-sending this
recommendation up to the Commission on Friday, January 8. ENF's Front Office has
asked that the matter be calendared for the second or third week in January."
Enforcement also wrote in this e-mail, "This is a high-profile enforcement case that
recently became time sensitive."

        The OIG investigation found that the Goldman case had become time-sensitive
because SEC staff had learned that the Senate Permanent Subcommittee on Investigations
("PSI") was considering holding a hearing about Goldman in late January, and SEC staff
was concerned that public information would be aired relating to the Goldman
investigation. There was also evidence that the SEC preferred that the facts about
Goldman's conduct be publicly aired first by the SEC in a press release announcing the
action, after it completed its investigation.

        The OIG investigation also found that on March 15,2010, a Counsel to the
Director and Deputy Director of the Division of Enforcement began a detail at PSI. Prior
to beginning this detail, this official sought advice from SEC Ethics Counsel regarding
the detail and was instructed that, "To the extent you have any non-public info about SEC
investigations, I would think you would not be permitted to share that with them."

        Later in her detail, the Enforcement Counsel e-mailed SEC staff that she would
like to disclose the SEC's Goldman investigation to PSI. She was again instructed that
all non-public information she obtained while at the SEC must remain non-public and
that she could not disclose the fact of the SEC's Goldman investigation. We did not fmd
evidence that any information about the Goldman investigation were disclosed by this
individual to PSI.



                                                    15
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        On January 19,2010, Enforcement wrote to the Office of the Secretary, "We met
again this afternoon with the Front Office to discuss [the Goldman investigation]. We
would like to have our recommendation against Goldman and Tourre considered at the
January 28 closed commission meeting and will get you a fmal action memo within the
next day ...." On January 22,2010, an Enforcement manager suggested in an e-mail to
senior Enforcement staff that the SEC file its complaint against Goldman on Friday,
January 29, arguing that the "24-7 news cycle" makes irrelevant the SEC's traditional
approach of avoiding filing significant Enforcement matters on Fridays. Others disagreed
with this argument, noting the historical practice in Enforcement not to file cases on
Fridays, because it was assumed that the Saturday newspapers were not going to be as
widely read.

       On January 24,2010, Chairman Schapiro conveyed her interest in "get[ting] the
GS case out" to her Enforcement liaison in the Chairman's office. On January 26,2010,
members of the Enforcement staff met with Commissioner Troy Paredes to discuss the
Goldman matter. On January 27,2010, the day before the Commission meeting in which
the Goldman recommendation was to be heard, the decision was made to pull the
recommendation from the Commission Calendar.

        The OlG investigation found that the Goldman case was pulled a second time
from the Commission Calendar for two reasons: (1) concerns expressed by
Commissioners and further analysis of the case by Enforcement staff regarding whether
or not to charge an additional individual; and (2) a decision by Enforcement staff to
obtain more evidence from Abacus purchasers to strengthen the SEC's case against
Goldman.

        The Enforcement staff took further investigatory steps in the Goldman case over
the next several months and marshaled additional evidence. On April 1, 2010, the
Enforcement staff submitted another Action Memorandum to the Commission
recommending that the Commission file a civil action against Goldman and Tourre. On
April 8, in an e-mail circulating a draft complaint against Goldman, Enforcement wrote
that they planned to send the Goldman complaint to New York to be filed "either the
afternoon of Wednesday April 14 or morning of Thursday April 15."

        The OlG investigation found that the Commission approved the filing of the
Goldman action on Wednesday afternoon, April 14, 2010. On April 12, 2010, the SEC
had learned that the NYAG planned to announce on April 15, 2010 a $7 million
settlement with Quadrangle Group LLC ("Quadrangle") for its alleged involvement in
kickbacks relating to pension fund investments. The SEC was in a position to file its own
proposed settlement with Quadrangle for similar alleged violations on the same day that
the NYAG would announce its settlement. Later on April 12, the SEC learned that the
NYAG intended to announce its settlement with Quadrangle on Wednesday, April 14,
instead of Thursday, April 15.

       The Director of Enforcement informed Chairman Schapiro that the SEC staff
planned to file its settlement with Quadrangle on Wednesday, April 14 at the same time

                                                   16 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

that the NYAG announced its settlement with Quadrangle. Chairman Schapiro
responded, "Let's make sure we don't announce Goldman same day" and testified that
the Quadrangle case was a really important case for the NYAG, and an important case for
the SEC as well. She stated that she did not want to detract from the announcement of
the Quadrangle case by announcing the Goldman case at the same time, and stated, "I
was a little worried that the Attorney General would be very upset if we announced
multiple cases the same day."

        Another reason advanced by SEC staff that it would not be advisable to announce
the Goldman action on the same day as Quadrangle was that "our goal is always to get
our enforcement message out widely," and bringing two cases on the same day would
lessen that and confuse the media's focus. The Director of Enforcement also noted that
the SEC did not want both Goldman and Quadrangle announced on the same day because
of the overwhelming amount ofbriefmg and other work involved for each matter. He
added that the SEC's Office of Public Affairs did not want the SEC to announce two
significant cases on the same day because the press would be diluted, and because of the
logistics involved in coordinating the publicity of the SEC's actions.

         In the Enforcement Director's response to Chairman Schapiro's April12 e-mail
about making sure that the SEC did not announce the Goldman action on the same day as
Quadrangle, he wrote that the SEC would announce the Quadrangle settlement on
Wednesday and file the Goldman action "likely" on Thursday. On the afternoon of
Tuesday, April 13, the SEC learned that the NYAG had changed its schedule again, and
that it now planned to announce the Quadrangle settlement on Thursday, April 15. There
was testimony that, once the NYAG moved the Quadrangle announcement date to
Thursday, April 15, the SEC decided to delay the Goldman action until Friday, April 16.

        On the morning of Wednesday, April 14, the Director of Communications wrote
in an e-mail to the Director ofthe SEC's Office of Public Affairs, that the Goldman
action would be filed on Friday, April 16. On Thursday morning, April 15, at 2:38 a.m.,
the Director of Communications e-mailed a detailed timeline to a variety of senior SEC
officials in Enforcement, Public Affairs and the Chairman's office of the anticipated
events for the remainder of that week. Events on this timeline included the SEC's
announcement of the Quadrangle settlement Thursday morning, filing of the Goldman
complaint Friday morning at 9:30 a.m., announcement of the Goldman filing at 9:45 a.m.,
and public release of the OIG Stanford Report Friday afternoon. The Enforcement staff
continued to review and edit the complaint against Goldman on Thursday, April 15.

       The SEC filed the Goldman complaint with the u.S. District Court for the
Southern District of New York at 10:29 a.m. on Friday, April 16, 2010. At 10:33 a.m. on
April 16, the SEC issued its press release concerning its filing of the complaint against
Goldman.

       At 1:57 p.m. on April 16, 2010, a few hours after the SEC filed its action against
Goldman, the SEC publicly released a redacted version of the OIG Stanford Report,
which contained criticisms of the SEC's response to concerns and allegations that Robert

                                                   17 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.
                                                                                                ,
Allen Stanford's companies were conducting a fraudulent scheme. In part because of
coverage of the SEC's Goldman action, press coverage of the OIG Stanford Report was
limited.

       Individuals both within and outside the SEC have noted the suspicious timing of
the SEC's announcement of the Goldman action and release of the Stanford report on the
same day. A senior Enforcement official wrote in an April 19, 2010 e-mail:

                 I'm hearing that the Chairman's office is denying that there
                 was any connection between the decision to file the case on
                 Friday and the decision to release the Stanford IG report the
                 same day. They had better be careful, because they may
                 get asked for e-mail, etc. from Congress or pursuant to a
                 FOIA request.

This senior official testified that he "assumed that it was not coincidental" that the OIG
Stanford Report and the Goldman action were made public on the same day, but that he
was not involved in decisions for either matter, and did not have knowledge that the
timing of the two events on the same day was intentional.

         In addition, OGe Ally                                •
                                                                ent an e-mail to a personal
friend on the day that the Goldman action was announced and the OIG Stanford Report
was released, stating, "What a coincidence that those two stories came out today. ;-)." He
testified that his e-mail about the timing of the two being a "coincidence" was based on
purely his own speculation that the timing of the two releases "would be positive damage
control for the Commission" in that the Goldman action and Stanford report were put out
on the same day in order for the Goldman action to drown out media coverage of the
Stanford report.

        These suspicions were likely fueled by the recent history of the SEC releasing
OIG reports that criticized it on "slow" news days. The SEC released the OIG's 457­
page Report of Investigation ("ROI") concerning the failure of the SEC to uncover
Bernard Madoffs Ponzi Scheme after 5:00 p.m. on September 4,2009, the Friday before
a three-day holiday weekend. The SEC then released the hundreds of exhibits supporting
the OIG's ROI concerning Madofflate on Friday, October 30, 2009. In addition, the
OIG ROI concerning the SEC's failure to vigorously pursue Enforcement action against
w. Holding Company, Inc., and Bear Stems & Co., Inc., was made public on Friday,
October 10, 2008. Consistent with this pattern, on the same Friday that the OIG Stanford
Report was publicly released and the Goldmanaction was announced, April 16, 2010, the
SEC also publicly released the OIG's ROI concerning the SEC's failure to timely
investigate allegations offmancial fraud at Metromedia International Group, Inc., which
had been submitted to the SEC by the OIG almost two months earlier.

        Although as noted above, we have found that the decision on the timing ofthe
release of the Goldman report was based at least partially upon maximizing press
coverage, and that ensuring positive press coverage was a consideration in deciding when

                                                   18 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

to file and announce cases, the OIG did not locate any concrete and tangible evidence in
e-mails or in testimony that the filing ofthe Goldman report was specifically delayed to
coincide with the issuance of the OIG Stanford Report. After the OIG submitted the OIG
Stanford Report to the Chairman on April 1, 2010, the SEC staff undertook the process of
redacting portions of the report before its public release, a task that appeared to proceed
independently of the timing of the SEC's Goldman action. On April 9, 2010, the Office
of the General Counsel sent an e-mail to all of the counsels to the Commissioners,
informing them that it planned to circulate a seriatim Action Memorandum on Monday,
April 12, seeking Commission authority by April 14 to release the OIG Stanford Report.
On that Monday, however, Office of the General Counsel notified all of the counsels to
the Commissioners via e-mail that, due to further consideration of certain redactions, the
Action Memorandum would not be ready to circulate until Tuesday, April 13. There was
testimony that, by April 13, a decision had been made to postpone release of the OIG
Stanford Report from April 14 to April 16 due to issues concerning the redaction of the
report, and that after that point, the date of release for the OIG Stanford Report was
"fixed" for Friday, April 16. The Action Memorandum seeking Commission authority to
release the OIG Stanford Report was ultimately circulated to the Commissioners'
counsels on April 14, and was not signed by all five Commissioners until Friday
morning, April 16.

        Accordingly, the OIG has concluded that the SEC's decision to file the action
against Goldman on April 16 was driven primarily by its desire to avoid filing the action
on the same day that it announced the Quadrangle settlement.

        The OIG investigation also found that the Enforcement staff did not notify
Goldman of the impending filing of the complaint against them prior to its filing. We
found that a senior Enforcement staffer on the Goldman case left a message with the
secretary for Goldman's counsel on Friday, April 16, 2010 to give notice that the SEC
had brought charges against Goldman and Tourre. Telephone records for Goldman's
counsel indicate that the first call received from the SEC on April 16 came at 10:39 a.m.,
ten minutes after the SEC filed its complaint against Goldman and seven minutes after
the SEC issued its press release for the Goldman action.

        Goldman's counsel testified that "it was unprecedented, in my view it was
contrary to decades of SEC experience that they would file without calling and giving an
opportunity for the respondent to put a proposal on the table." Several senior
Enforcement officials testified that it was the practice of many people at the SEC to
notify a defendant that the Commission had authorized the staff to file an action against
the defendants in order to potentially obtain a "settlement at the 11th hour." There was
also testimony that one concern in notifying Goldman of Commission authorization in
advance of filing was that:

                 Goldman is a pretty sophisticated player. ... [T]hey're
                 good at the public relations game, and that ... if you know
                 that something is coming from the SEC, you can maybe
                 take certain actions to ... precondition the reporters about

                                                   19
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 the case, and maybe the coverage would not be as
                 favorable, from the SEC's perspective.

        The Director of Enforcement testified that Goldman's counsel called him a day or
two after the filing of the Goldman complaint and "expressed displeasure about really not
having a chance to settle the case." He testified that he responded to Goldman's counsel
that Goldman had many opportunities to settle the. case and that the SEC had no reason to
believe that Goldman was interested in settling, noting the lack of settlement discussions
with Goldman prior to the filing of the SEC's action against Goldman. He also testified
that he did not necessarily think it was a good idea for it to become a standard practice of
the SEC to notify an entity when the Commission has authorized filing an action against
the entity.

       The OIG found that Section B(15)(c) of Administrative Regulation SECR 18-2,
Press Relations Policies and Procedures, states, in part:

                 Every effort should be made to avoid the possibility that
                 defendants in an SEC enforcement action first learn of the
                 action when they read about it in the newspapers or when
                 they are called by a reporter for comment about the SEC's
                 complaint. The division,' regional or district office
                 primarily responsible for the filing of a particular complaint
                 shall take all necessary steps to see that the defendants
                 and/or their counsel are given timely advice concerning the
                 action.

         While we found that the Office of Public Affairs circulated its press policy,
including SECR 18-2, to the Division of Enforcement staff on at least an annual basis,
two members of the Enforcement staff responsible for bringing the Goldman action
testified that they were not aware of the provision quoted above.

        Accordingly, the OIG found that the SEC staff did not fully comply with
Administrative Regulation SECR 18-2, because they did not make "every effort" to
notify Goldman ofthe SEC's action prior to filing the action. In light of the differing
views expressed by Division of Enforcement management as to whether notice should be
given to a defendant in advance of an SEC enforcement action, the OIG recommends that
the staff consider whether this regulation should be revised.

        The OIG investigation also found that the SEC's decision to file its action against
Goldman during trading hours with no advance notice to Goldman or the New York
Stock Exchange resulted in market volatility, which concerned the'U"fW'New York
Stock Exchange Regulation ("NYSE Regulation"). However, the OIG did not [md
anything improper in this decision. The OIG is recommending that the Division of
Enforcement give further consideration to whether, under certain circumstances, filing an
action after trading hours or giving advance notice of an action to NYSE Regu~ation or
other self-regulatory organizations is appropriate.

                                                   20
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



        The OIG also analyzed the circumstances surrounding the timing of the SEC's
July 201 Osettlement with Goldman. Settlement negotiations with Goldman began almost
immediately after the SEC filed its complaint against Goldman. A few weeks prior to the
July 15 settlement announcement, Goldman made it clear to the SEC staff that it wanted
the matter settled: (1) prior to July 19, when Goldman's answer to the SEC's complaint
was due in the SEC's civil action against Goldman; and (2) prior to July 20, when
Goldman's quarterly earnings would be announced and at which point Goldman would
have to take and announce an accounting reserve if no final settlement had been reached.
The Director of Enforcement testified that, at that point, "everybody was of the view that
if we're going to get [the settlement] done it had to get done before those two dates."
After settlement negotiations through June, on July 1, 2010, the Enforcement staff sent
draft settlement papers to Goldman's counsel and by early July, the SEC staffhad set a
plan to bring Goldman's settlement offer before the Commission on Thursday, July 15.
The Enforcement staff circulated the Action Memorandum recommending acceptance of
Goldman's settlement offer to the Commissioners on July 12. Senior Enforcement staff
held meetings with each Commissioner prior to the July 15 Commission meeting to brief
them on the proposed settlement with Goldman. On July 14, the Enforcement Staff sent
fmal versions of the settlement papers to Goldman's counsel for signature.

         The OIG investigation found that the decision was made to file and announce the
settlement with Goldman immediately after the Commission approved the settlement on
July 15,2010, which was also the same day that the fmancial regulatory reform bill
passed the Senate. The Director of Enforcement testified that one of the reasons for this
decision was a concern about leaks to the media. A senior Enforcement official agreed
that the primary reason that the SEC decided to announce the settlement quickly was "to
beat leaks. . .. [T]he more time that went by between the Commission approving it and
filing the settlement, the more likely it was going to get out there." A senior official in
the Chairman's office stated that the SEC decided to announce the settlement quickly on
Thursday, July 15, rather than wait until the next day because, "If you wait until Friday
and it leaks, then Goldman gets to control the story." The Director of Public Affairs
testified that there was "absolutely" concern at the SEC that Goldman would provide
information to the media and spin the settlement in Goldman's favor.

       The Director of Enforcement also testified that there may have been internal
discussions at the SEC that the filing of the proposed Goldman settlement on the same
day that financial regulatory reform was approved by the Senate might cause people to
speculate that the timing between the two events was connected, even though it was not.
But he testified that .the SEC decided to keep to its schedule because it would have been
inappropriate to delay the settlement because of this concern. Others concurred that
while there was concern that the SEC would be perceived poorly by announcing the
proposed Goldman settlement on the same day that fmancial regulatory reform legislation
was passed by the Senate, it was decided to announce the settlement that day as originally
planned, because if the SEC held the Goldman settlement filing and announcement
another day, "people will then be able to say we held it because of reg reform."


                                                   21 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

       The Commission approved the settlement in a closed Executive Session on the
afternoon of July 15,2010. At 3:15 p.m., pursuant to a timeline previously circulated, a
few minutes after the Commission approved the settlement, the SEC issued a press
advisory announcing a press conference to be held at 4:45 p.m., without identifying the
topic of the press conference. At 4:28 p.m., as the NYSE trading day was ending, the
SEC released its public announcement of the settlement with Goldman.

        The 01G investigation did not find that the SEC's investigation of, or its action
against, Goldman was intended to influence, or was influenced by, financial regulatory
reform legislation. The 01G also did not fmd that the settlement between the SEC and
Goldman was intended to influence, or was influenced by, fmancial regulatory reform
legislation. We also did not find that the SEC improperly coordinated its Goldman
investigation with outside entities or shared information about its Goldman investigation
with any journalists or members of the media prior to the filing of its action against
Goldman on April 16, 2010.

        The 01G did fmd that the SEC staff did not fully comply with Administrative
Regulation SECR 18-2 by failing to notify Goldman of the SEC's action until after it had
filed the action, and that this decision, in combination with the decision not to give notice
to NYSE Regulation in advance of filing the action and the decision to file the action
during market hours, resulted in an increase in volatility in the securities markets on the
day of the filing.

       Accordingly, the 01G is recommending that the Chairman and the Director of
Enforcement:

        (1)     Give consideration to, and then communicate to the Division of
        Enforcement staff, the circumstances, if any, under which the Division of
        Enforcement should give notice to NYSE Regulation or other self-regulatory
        organization in advance of filing an enforcement action in which the defendant
        has not been given notice that an action is imminent;

        (2)     Give consideration to, and then communicate to the Division of
        Enforcement staff, the circumstances, if any, under which the Division of
        Enforcement should file an enforcement action, and issue any related press
        releases or advisories, after the close of trading hours for the exchange onwhich
        the securities of the defendant entity trades; and

        (3)    Give consideration as to whether Administrative Regulation SECR 18-2
        should be revised, and to then communicate to the Division of Enforcement staff
        whether and in what circumstances advance notice should be given to defendants
        in an Enforcement action.




                                                   22 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

 disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

 Recipients ofthis report should not disseminate or copy it without the Inspector General's approval. 


                             RESULTS OF THE INVESTIGATION

 I. 	    THERE IS NO EVIDENCE INDICATING THAT THE GOLDMAN
         SACHS ACTION OR SETTLEMENT WAS INTENDED TO INFLUENCE,
         OR WAS INFLUENCED BY, FINANCIAL REGULATORY REFORM
         LEGISLATION

         The OIG has not found evidence indicating that the SEC's investigation of, or its
 action against, Goldman was intended to influence, or was influenced by, fmancial
 regulatory reform legislation. The OIG found that the investigation's procedural path and
 timing was governed primarily by decisions relating to the case itself, as well as concerns
 about: (1) facts surrounding the investigation's subject matter being publicized prior to
 the SEC filing its action; (2) maintaining a relationship with the New York State Attorney
 General ("NYAG"); and (3) maximizing and shaping press coverage, as described in
 Sections IV. and V. below.

          The OIG analyzed the information found relating to each major decision made by
 the SEC staff in connection with the Goldman investigation, the Goldman complaint, and
 its timing. The OIG found that the SEC's Division of Enforcement decided to remove its
 recommendation to authorize an action against Goldman and Tourre from the December
 Commission Calendar in order to take the testimony of a Goldman manager with a
 possible connection to the Goldman securities transactions at issue in the SEC's
 investigation (hereinafter, referred to as "Goldman Manager") before the Commission
 considered the matter. See Section IV. C. below. An e-mail from Reid Muoio, the
 Assistant Director assigned to the Goldman investigation, contemporaneous to the
 December 8, 2009 decision to pull the matter from the Commission Calendar, confirmed
 this as the reason it was removed from the Commission Calendar. This e-mail is
 consistent with the testimony of witnesses in the Division of Enforcement and the Office
 of the Chairman. This is also corroborated by the fact that the staff took the testimony of
 this Goldman Manager a few weeks later and rescheduled the Goldman matter on the
 Commission Calendar shortly after taking his testimony, as discussed in Section IV. D.
                                 ,LE

LE
LE


 culminated in the decision to pull the matter from the Calendar, as described in Sections
 IV. A., IV. B. and IV. C. below. The OIG did not fmd the proposed fmancial regulatory
 reform legislation to have played a role in this decision.

         The OIG found that several factors may have played a role in the SEC's decision
 to remove its recommendation to authorize an action against Goldman and Tourre from
 the January 28,2010 Commission Calendar, as described in Section IV. E. below. These
 factors related to extra investigatory steps that the staff decided should be taken,
 including providing a Wells notice to the Goldman Manager and seeking affidavits from
 entities who purchased the ABACUS collateralized debt obligations ("Abacus CDOs")
 from Goldman. The lack of imminence of a hearing by the Senate Permanent
 Subcommittee on Investigations ("PSI") relating to Goldman may also have played a role

                                                    23 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.

 in the decision to delay bringing the Goldman matter up for Commission consideration,
 as discussed in Section IV. D. below. The OIG did not find financial regulatory reform
 legislation to have played a role in this decision.

         The OIG found that the Commission filed its action against Goldman on April 16,
 2010 after performing further investigative work, as discussed in Section IV. E. 2. below,
 including: (1) giving a Wells notice to the Goldman Manager; (2) deciding after lengthy
 consideration not to recommend charging the Goldman Manager; and (3) obtaining
 affidavits from German investors in the Abacus CDOs. On March          the     after

 to charge the Goldman Manager, the Enforcement staff reserved the next available date
 on the Commission Calendar in which all five Commissioners would attend, which was
 April 14. See Section IV. E. 2., IV. E. 3., and V. A. below. The OIG did not fmd
 financial regulatory reform legislation to have played a role in bringing the SEC's action
 against Goldman, or in the timing of this action.

           The OIG found that the SEC's decision to file its action against Goldman on April
  16,2010 was primarily driven by the SEC's desire to avoid filing on the same day (April
  15) that the SEC and the NYAG planned to announce their settlements with Quadrangle.
  Contemporaneous e-mails and testimony from Chairman Mary Schapiro, Senior Adviser
  to the Chairman Stephen Cohen, Director Khuzami, and SEC Director of
  Communications Myron Marlin support this fmding, as discussed in Section V. A. below.
  Chairman Schapiro and Cohen testified that there were two reasons for wanting to avoid
  filing the Goldman action on the same day as the Quadrangle settlement announcements:
  (1) to maximize press coverage (which strengthens the deterrent effect of an SEC
  Enforcement action) of both the Goldman action and the Quadrangle settlement, and (2)
  to avoid possibly upsetting the NYAG by upstaging the Quadrangle settlement with the
  Goldman action. See Section V. A. below. The OIG also found that the SEC did not file
  the Goldman complaint on April 14, the day that the Commission authorized the action,
  because the SEC staff believed that it was not ready to file its complaint on that day.
  This finding is supported by witness testimony and by documentation of the continued
  work that was done on the complaint through April 15, as discussed in Section V. A.
. below.

         The OIG found that the settlement between the SEC and Goldman was not
 intended to influence, nor was it influenced by, fmancial regulatory reform legislation.
 The OIG found that the timing of the announcement of the SEC's settlement with
 Goldman on July 15 was governed in part by an effort to resolve the matter before
 Goldman's July 19,2010 deadline to answer the SEC's civil complaint, and by a
 scheduled July 20,2010 earnings release that would require Goldman to announce an
 accounting reserve relating to the prospective settlement with the SEC. The OIG's
 finding that the SEC's and Goldman's efforts to settle the matter were hastened by
 Goldman's July 19 deadline to answer the civil complaint and by Goldman's scheduled
 July 20 earnings announcement is supported by the testimony of numerous witnesses in
 Enforcement and in the Office of the Chairman, by the testimony of Goldman's counsel,
 and by documents created by the SEC staff in early July. See Section VI. below.

                                                    24
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.



       The OIG also found that one of the reasons that the SEC decided to file and
announce the Goldman settlement almost immediately after Commission approval on
July 15 was a concern about leaks in the media that might portray the settlement in an
inaccurate or misleading fashion. Testimony and documentary evidence indicate that the
SEC staff wanted the SEC to be able to "shape" the story before Goldman had an
opportunity to do so, as discussed in Section VI. below.

         The OIG has reviewed the e-mails of all of the SEC staff who have played any
role in the Goldman action, including the Chairman, the Chief of Staff and Deputy Chief
of Staff, the Enforcement staff, the Commissioners and their counsel, and the Office of
Legislative and Intergovernmental Affairs. In addition to exhaustively searching millions
of e-mails and other documents, the OIG conducted on-the record, under-oath testimony
of all individuals who had any involvement in the decision to bring the Goldman case
and!or the timing of the case.

        The witnesses in this investigation testified that they had no reason to believe, and
were not aware of any information indicating, that the SEC's action against Goldman or
the timing of that action was in any way related to or specifically meant to advance
fmancial regulatory reform legislation. 2

        In addition, we found no evidence that anyone at the SEC ever mentioned the
financial reform legislation in connection with the Goldman investigation or in
connection with the filing of an action against Goldman prior to the April 16 filing. 3

        Chairman Schapiro testified, "[I]t never crossed my mind that anyone would ever
link our filing this case to reg reform. In a million years it wouldn't have crossed my
mind and didn't." Schapiro Testimony Tr. at 22. Cohen testified that Schapiro never
indicated in any meetings about the Goldman investigation that it would help fmancial
regulatory reform if the SEC brought a significant case like Goldman. Cohen Testimony
Tr. at 75.



2        Reisner Tes,;r,r,r. at 113; Unidentified Senior Counsel Testimony Tr. at 30; .....
Testimony Tr. at 65;          Testimony Tr. at 80-81; Muoio Testimony Tr. at 135;                      Tr.
at 39; Schapiro Testimony Tr. at 22; Cohen Testimony Tr. at 134; Aguilar Testimony Tr. at 15; Casey
Testi,%itrat 19; Paredes Testimony Tr. at 13-14; Lench      Till,.     Tr. at 88-89; Walter Testimony Tr.
at 12;· .      estimony Tr. at 43; Marlin Testimony Tr. at 55;      • Testimony Tr. at 64; McKown
Testimony Tr. at 47; Friestad Testimony Tr. at 34; Delfin Testimony Tr. at 39-40; Gillan Testimony Tr. at
31; Nisanci Testimony Tr. at 45; Henseler Testimony Tr. at 67; Kelley Testimony Tr. at 30; Spitler
Testimony Tr. at 63.

        Schapiro Testimony Tr. at 21; Khuzami Testimony Tr. at 55; Muoio Testimony Tr. at 134;
       Testimony Tr. at 80; Calande Testimony Tr. at 39; Aguilar Testimony Tr. at 15; Casey
Tr. at ; Paredes Testimony Tr. at 13; Lench Te",'.r. at 88; Walter Testimony Tr. at 12;
Testimony Tr. at 42; Marlin Testimony Tr. at 53;    • Testimony Tr. at 63; Nester Testimony . at
154; McKown Testimony Tr. at 47; Friestad Testimony Tr. at 34; Gillan Testimony Tr. at 31; Kelley
Testimony Tr. at 30.

                                                    25 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        Khuzami testified that, in all ofthe discussions that he participated in about the
timing of the filing of the Goldman action, financial regulatory reform was never
mentioned. Khuzami Testimony Tr. at 55. Cheryl Scarboro, the Associate Director
assigned to the Goldman investigation, testified that, "[A]ll along the way, [the Goldman]
matter was put before the [Commission], put on the calendar and pulled off for reasons
that related directly to the investigation." Scarboro Testimony Tr. at 38-39. Reid Muoio,
the Assistant Director assigned to the Goldman investigation, testified:

                 [W]e brought a case based upon the facts and the evidence
                 and the merits of the case. . .. Throughout the process,
                 fmancial regulation did not, quite honestly, once occupy a
                 second of thought in my mind nor did I have any
                 conversations with anybody on that subject in relation to
                 the filing of the [Goldman] case."

Muoio Testimony Tr. at 135.

        In addition, many SEC witnesses in this investigation, including Chairman
Schapiro, testified that they were surprised or "shocked" at the extent of the media
attention given to the Goldman action, as discussed in Section V. C. below. This belief
held by the SEC staff, which is corroborated bye-mails, that the Goldman action might
not have the public impact that it ultimately had, is another factor that argues against the
idea that the SEC or its staff were attempting to influence financial regulatory reform
legislation.

        An April 20, 2010 letter from several Members of Congress on the House
Committee on Oversight and Government Reform to Chairman Schapiro specifically
asked whether SEC Chief of Staff Didem Nisanci or Deputy Chief of Staff Kayla Gillan
engaged in any communication with the Executive Office of the President, any Members
of or employees of Congress, or any Democratic political committees. Our investigation
found no evidence indicating that either Nisanci or Gillan communicated with anybody
outside the SEC concerning the Goldman investigation or the Goldman action prior to the
SEC's complaint being filed on April 16. Our investigation also found no evidence
indicating that either Nisanci or Gillan played any significant role in the SEC's
investigation of Goldman or its authorization of the action against Goldman.

        Nisanci testified that, although she was aware ofthe Goldman investigation since
late 2009, the decisions to calendar matters for Commission consideration are decided by
the Division of Enforcement, and that she did not participate in decisions during the week
of the SEC's Goldman complaint filing as to when to file the action. Nisanci Testimony
Tr. at 12, 14-15,36. Nisanci testified that, in her conversations with employees at the
White House and members and staff of Congress prior to the filing of the Goldman action
on April 16, there was no discussion about the SEC's Goldman investigation. Id. at 43.
Nisanci also testified that there were never any internal discussions at the SEC that
bringing a big case would help progress fmancial regulatory reform legislation. Id. at 45.


                                                   26 

This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

         Gillan testified that she did not even become aware ofthe SEC's Goldman
investigation until a few days prior to the SEC's filing of its complaint against Goldman
in April. Gillan Testimony Tr. at 10. Gillan testified that, although she received regular
reports on the Division of Enforcement's National Priority Matters, she rarely read them.
!d. at 9. Although Cohen e-mailed Gillan and others the Action Memorandum for the
Goldman matter on January 24, Gillan testified that she was "quite sure" that she did not
read the memorandum. !d. at 11; January 24,2010 E-mail from Stephen Cohen to Didem
Nisanci, attached as Exhibit 36. Gillan testified that in her conversations with
Congressional members and staff about fmancial regulatory reform, the Goldman
investigation was never mentioned. !d. at 29. Gillan stated that she had never heard
anyone from Congress suggest that it would help the fmancial regulatory reform
legislation if the SEC brought a big case. ld.


II. 	   THERE IS NO EVIDENCE OF COORDINATION BETWEEN THE SEC
        AND OTHER GOVERNMENTAL OR POLITICAL ENTITIES IN ITS
        GOLDMAN SACHS ACTION

        The OIG has not found evidence indicating that the SEC coordinated its
investigation of, or its action against, Goldman with the Executive Office of the
President, the White House, any White House employees, any Member of Congress, any
Congressional employee, the Democratic National Committee, the Democratic Senate
Campaign Committee, the Democratic Congressional Campaign Committee, or any of
their employees. The OIG has reviewed the e-mails of all of the SEC staff who may have
played a role in the Goldman action, including the Enforcement staff, Commissioners and
their counsel, and the Office of Legislative and Intergovernmental Affairs. The
documents reviewed and testimony taken, as described below, indicate no sharing of any
information about the SEC's investigation of Goldman with any outside entities or
individuals prior to the SEC's April 16 action against Goldman. The OIG finds that the
SEC's investigation proceeded independently of any other governmental or political
entities. In fact, the OIG found much testimony and documents indicating that the SEC
took great care to avoid sharing information about its Goldman investigation with PSI,
which was investigating Goldman for similar issues, as discussed in Sections IV. D. and
IV. E. 4. below, in part because the SEC was interested in bringing its action against
Goldman before PSI held any public hearings concerning the same issues. An SEC
employee on detail to PSI was repeatedly instructed not to share any information about
the SEC's Goldman investigation with PSI, and the SEC declined PSI's request in
February 2010 to allow a Senior Policy Adviser at the SEC to assist PSI in its Goldman
mqurry.

       The SEC witnesses in this investigation testified that they were not aware of any
information indicating that the SEC coordinated its action against Goldman with the



4       Scarboro Testimony Tr. at 56-57; Khuzami
Unidentified Senior Counsel Testimony Tr. at 30-31;
                                                   .,I
Executive Office of the President, the White House, or any White House employees. 4




                                                   27 

                                                            Y Tr. at 94-95; Reisner Testimony Tr. at 113;
                                                            Testimony Tr. at 65;.....     Testimony Tr.
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

The SEC witnesses in this investigation also testified that they were not aware of any
infonnation indicating that the SEC shared any infonnation concerning its Goldman
investigation with the Executive Office of the President, the White House, or any White
House employee. 5

        Moreover, the SEC staff and Commissioners testified that they were not aware of
any infonnation indicating that the SEC coordinated its action against Goldman with any
Member of Congress or any Congressional employee. 6 The SEC witnesses in this
investigation also testified that they were not aware of any infonnation indicating that the
SEC shared any infonnation concerning its Goldman investigation with any Member of
Congress or any Congressional employee prior to the filing of the SEC's complaint
against Goldman. 7

       The SEC witnesses in this investigation testified under oath that they were not                               \
aware of any infonnation indicating that the SEC coordinated its action against Goldman
with the Democratic National Committee, the Democratic Senate Campaign Committee,


at 81; Muoio Testimony Tr. at 136; Calande Testimony Tr. at 39; Schapiro Testimony Tr. at 22; Cohen
Testimony Tr. at 134; Aguilar Testimony Tr. at 16; Casey Testimony Tr. at 20; Paredes Testimony Tr. at
14;                  Tr. at 89; W                Tr. at 13;    III Testimony Tr. at 45; Marlin Testimony
Tr. at 55;                 Tr. at 32; •      Testimony Tr. at 64; Nester Testimony Tr. at 155; McKown
Testimony . at 48; Friestad Testimony . at 34; Delfin Testimony Tr. at 40; Gillan Testimony Tr. at 32;
Nisanci Testimony Tr. at 46; Kelley Testimony Tr. at 30; Spitler Testimony Tr. at 63.

         Scarboro Testimony Tr. at 57; Khuzami                Tr. at 95; Reisner Testil,t,. at 113-114;
Unidentified Senior Counsel·                  31; /Oi1.      Testimony Tr. at 65-66;          Testimony Tr.
at 81; Muoio Testimony Tr. at 136                       Tr. at 51-52; Calande Testimony Tr. at 40; Schapiro
Testimony Tr. at 23; Cohen'               at 134; Aguilar Testimony Tr. at 16; Casey Testimony Tr. at 20;
Paredes Testimony Tr. at 14;                   Tr. at 89;                     Tr. at 13;  III Testimony Tr.
at 45; Marlin Testimony Tr. at 55;                   Tr. at 32;'         Testimony Tr. at 64; Nester
Testimony Tr. at 155; McKown Testimony Tr. at 48; Delfin Testimony Tr. at 41; Gillan Testimony Tr. at
32; Nisanci Testimony Tr. at 46; Kelley Testimony Tr. at 31; Spitler Testimony Tr. at 63.

6         Scarboro Testimony Tr. at 57; Khuzami
Unidentified Senior Counsel Testimony Tr. at 31;
                                                    ei",iV   Tr. at 95; Reisner
                                                           Testimony Tr. at 66;
                                                                                   Tie    Tr. at 114;
                                                                                      tfTestimony    Tr. at
81; Muoio Testimony Tr. at 136; Calande Testimony Tr. at 40; Schapiro Testimony Tr. at 23; Cohen
Testimony Tr. at 134; Aguilar Testimony Tr. at 16; Casey Testimony Tr. at 20; Paredes Testimony Tr. at
15; Lench Testimony Tr. at 89; W           .      Tr. at 13;allfestimony Tr. at 45; Marlin Testimony
Tr. at 56; r a Testimony Tr. at 32; •                     Tr. at 64; Nester Testimony Tr. at 155; McKown
Testimony Tr. at 48; Friestad Testimony Tr. at 34; Delfin Testimony Tr. at 41; Gillan Testimony Tr. at 32;
Nisanci Testimony Tr. at 47; Kelley Testimony Tr. at 31; Spitler Testimony Tr. at 64.
7
          Scarboro Testimony Tr. at 57; Khuzami
Unidentified Senior Counsel       .      Tr. at 31; """'
                                                                                   Tat,
                                                                  Tr. at 95; Reisner
                                                                 Testimony Tr. at 66;
                                                                                                 Tr. at 114;
                                                                                                Testimony Tr. at
82; Muoio Testimony Tr. at                               Tr. at 52; Calande Testimony Tr. at 40; Schapiro
Testimony Tr. at 23; Cohen Testimony Tr. at 135; Aguilar Testimony Tr. at 16; Casey T e . ·Tr. at
20; Paredes Testimony Tr. at 15; Lench Testimony Tr. at 89; W                         Tr. at 13; • .      estimony
Tr. at 45; Marlin Testimony Tr. at 56; raTestimony Tr. at 32; •                  Testimony Tr. at 65; Nester
Testimony Tr. at 155; McKown Testimony Tr. at 49; Delfin Testimony Tr. at 41; Gillan Testimony Tr. at
32; Nisanci Testimony Tr. at 47; Kelley Testimony Tr. at 31; Spitler Testimony Tr. at 64.


                                                       28
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

the Democratic Congressional Campaign Committee, or any of their employees. 8 The
SEC staff and Commissioners in this investigation also testified that they were not aware'
of any information indicating that the SEC shared any information concerning its
Goldman investigation with the Democratic National Committee, the Democratic Senate
Campaign Committee, the Democratic Congressional Campaign Committee, or any of
their employees. 9

        Khuzami testified that there was never any discussion of the Goldman
investigation in any of his communications with Congress about fmancial regulatory
reform prior to the Goldman action being filed. Khuzarni Testimony Tr. at 89. Khuzarni
also testified that it was never suggested, either internally at the SEC or externally with
Congress, that it would be good for the SEC to bring a big case in order to provide a push
for financial regulatory reform. Id. at 91. Likewise, Kenneth Lench, Chief of the
Division of Enforcement's Structured and New Products Unit, which took charge of the
Goldman investigation in January 2010, testified that there was never any discussion of
the Goldman investigation in any of his communications with Congress prior to the
Goldman action being filed. Lench Testimony Tr. at 87.

        Similarly, Senior Adviser to the Chairman Cohen testified that there was never
any discussion of the Goldman investigation in any of his communications with
Congressional staff about financial regulatory reform prior to the Goldman action being
filed. Cohen Testimony Tr. at 130.

        Eric Spitler, Director of the SEC's Office of Legislative and Intergovernmental
Affairs, testified that the Goldman investigation was not raised in any of his
conversations with White House employees prior to the filing of the Goldman action.
Spitler Testimony Tr. at 60. Ricardo Delfm, Special Counsel to the Chairman, and Julie
Davis, Deputy Director for the Office of Legislative and Intergovernmental Affairs, both
testified that the Goldman investigation was not raised in any of their conversations with

          Scarboro Testimony Tr. at 57-58; Khuzami                      at 96; Reisner Tes.ijrTr. at 114­
115; Unidentified Senior Counsel T            Tr. at 31;....                    Tr. at 66;          Testimony
Tr. at 82; Muoio Testimony Tr. at                            .Tr. at 52; Calande Testimony Tr. at 40; Schapiro
Testimony Tr. at 24; Cohen Testimony . at           Aguilar Testimony Tr. at 17; case"'I,¥ny Tr. at 20;
Paredes Testimony Tr. at 15; Lench Testimony Tr. at 90; W                 .      Tr. at l3 • .      estimony Tr.
at 46; Marlin Testimony Tr. at 56; _estimony Tr. at 32;'                    Testimony Tr. at 65; Nester
Testimony Tr. at 155; McKown TestImony Tr. at 49; Friestad                    Tr. at 34; Delfin Testimony Tr. at
42; Gillan Testimony Tr. at 33; Nisanci Testimony Tr. at 47; Henseler Testimony Tr. at 68; Kelley
Testimony Tr. at 31; Spitler Testimony Tr. at 64.

9         Scarboro Testimony Tr. at 58; Khuzami Tes.r'jif at 96; Reisner TestiEr,. at 115;
Unidentified Senior Counsel Testimony Tr. at 31-32;             Testimony Tr. at 66;       Testimony Tr.
at 82-83; Muoio Testimony Tr. at l37; Calande Testimony Tr. at 41; Schapiro Testimony Tr. at 24; Cohen
Testimony Tr. at l35; Aguilar Testimony Tr. at 17; Casey Testimony Tr. at 20; Paredes Testimony Tr. at
15; Lench Testimony Tr. at 90; W           .      Tr. at 14; llJili'estimony Tr. at 46; Marlin Testimony
Tr. at 57; ~Testimony Tr. at 32; •            Testimony Tr. at 65; Nester Testimony Tr. at 155; McKown
Testimony Tr. at 49; Delfin Testimony Tr. at 42; Gillan Testimony Tr. at 33; Nisanci Testimony Tr. at 48;
Henseler Testimony Tr. at 68; Kelley Testimony Tr. at 32; Spitler Testimony Tr. at 65.


                                                      29
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Congressional members and staff prior to the filing of the Goldman action. Delfin
Testimony Tr. at 38; Davis Testimony Tr. at 31-32. Delfin and Davis also testified that at
no point in time did any Congressional members or staff say that it would be helpful to
the financial regulatory reform legislation's passage if the SEC brought a big case.
Delfin Testimony Tr. at 38; Davis Testimony Tr. at 32.

         The OIG found no evidence indicating that the SEC coordinated the settlement of
its action against Goldman with the Executive Office of the President, the White House,
any White House employees, any Member of Congress, any Congressional employee, the
Democratic National Committee, the Democratic Senate Campaign Committee, the
Democratic Congressional Campaign Committee, or any oftheir employees. The OIG
found that settlement negotiations and approval proceeded independently of any other
governmental entities, any legislation, or any political entities. The documents reviewed
and testimony taken by the OIG gave no indication of coordination or communications
between the SEC and other governmental entities concerning the settlement before its
public announcement.

        Numerous witnesses in this investigation testified that they were not aware of any
information indicating that the SEC coordinated its proposed settlement with Goldman,
which was announced on July 15, with either the Executive Office of the President, the
White House, Congress, the Democratic National Committee, the Democratic Senate
Campaign Committee, the Democratic Congressional Campaign C~mmittee, or any of
their employees. Khuzami Testimony Tr. at 97; Cohen Testimony Tr. at 136; Friestad
Testimony Tr. at 35;               .      Tr. at 14; Paredes Testimony Tr. at 17; Lench
Testimony Tr. at 91; •          Testimony Tr. at 66. When asked during her testimony
whether there was any relationship at all between the timing of the Goldman settlement
and the fact that financial regulatory reform legislation was passed in the Senate on the
same day, Chairman Schapiro testified that there was, ''None whatsoever." Schapiro
Testimony Tr. at 28. Commissioner Elisse Walter,                    Senior
Communications Adviser for the Division of Enforcement, and Pauline Calande, Counsel
to the Director and Deputy Director of the Division of Enforcement, each testified that
they were not aware of any relationship between the SEC's settlement                    and
fmancial regulatory reform legislation. Walter Testimony Tr. at 15; •          Testimony
Tr. at 67; Calande Testimony Tr. at 49. Cohen testified that when the SEC staff initially
decided to announce the Goldman settlement on July 15, his understanding was that the
Senate vote on fmancial regulatory reform legislation was probably going to take place at
some point after July 15. Cohen Testimony Tr. at 127-129. Moreover, numerous SEC
witnesses testified that when the SEC staff realized on July 15 that the Senate vote would
be taking place on the same day that they were announcing the Goldman settlement, the
staff decided to adhere to their plan to announce the settlement that day despite the
potential for the coincidence drawing criticism, because a decision to delay the Goldman
settlement announcement due to legislative action would itself have been the result of an
inappropriate influence by external circumstances. Khuzami Testimony Tr. at 93; Marlin
Testimony Tr. at 51-52; Nester Testimony Tr. at 141-142; Gillan Testimony Tr. at 36-37;
Davis Testimony Tr. at 40; Kelley Testimony Tr. at 36.


                                                   30
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



III. 	   THE OIG HAS NOT FOUND EVIDENCE DEMONSTRATING THAT
         THE SEC SHARED INFORMATION ABOUT ITS GOLDMAN SACHS
         INVESTIGATION OR ACTION WITH ANY NEWS ORGANIZATIONS
         PRIOR TO THE FILING OF THE SEC'S COMPLAINT AGAINST
         GOLDMAN SACHS

        After an extensive search of e-mails for dozens of SEC employees who may have
played a role or known about the Goldman action, and taking the sworn testimony of
dozens of these employees, the OIG has not found evidence demonstrating that anyone at
the SEC shared information·about its Goldman investigation with the media prior to the
filing of its action against Goldman on April 16, 2010.

       The New York Times Company represented to the OIG that its article about the
SEC's action against Goldman first appeared at 10:38 a.m., at which point the SEC had
already filed its complaint against Goldman an! I w , i . s S release about the matter.
August 31, 2010 Letter from David McCraw to··                 attached as Exhibit 37. As
discussed in Section V. A. below, the SEC's complaint against Goldman was filed with
the SDNY Clerk at 10:29 a.m. on April 16, and the SEC issued its press release at 10:33
a.m. SDNY Interview Memorandum at 1; April 30, 2010 SEC.gov Press Release
webpage, attached as Exhibit 38. 10

         Cohen, Joan McKown (the Chief Counsel in the Division of Enforcement at the
time), Marlin a n d _                                    SEC's Office of Public Mfairs) all
testified that they were not aware of any information indicating that anyone at the SEC
shared any information with the news media or journalists concerning either the Goldman
investigation before it was filed or the Goldman settlement before it was filed. Cohen
Testimony Tr. at 137; McKown Testimony Tr. at 49-50; Marlin Testimony Tr. at 57;
_       Testimony Tr. at 32. Marlin testified that, in his experience, the SEC has never
given advance notice to a journalist or media outlet about a particular SEC complaint
filing. Marlin Testimony Tr. at 32-33. Lench, Davis, Anne-Marie Kelley (a Dellll
Director of the SEC's Office of Legislative and Intergovernmental Affairs) and         .
testified that they were not aware of anyone who disclosed non-public information about
the Goldman investigation to any                      Testimony Tr. at 45; Davis Testimony
Tr. at 34; Kelley Testimony Tr. at 23;           Testimony Tr. at 66.

       On April 14, 2010, Scott Friestad, an Associate Director in the Division of
Enforcement, sent an e-mail to Khuzami, Enforcement Division Deputy Director Lorin

10
          The New York Times Company represented that it was unable to retrieve the version of its article
about the SEC's action against Goldman as it was first published at 10:38 a.m. Exhibit 37. As a result, the
level of detail concerning the SEC's action contained in this first iteration of the article could not be
reviewed by the OIG. The New York Times Company declined to inform OIG whether it was aware of the
Goldman action prior to its public announcement, stating that this declination was consistent with their
long-standing policy not to respond to requests seeking information about unpublished information or
news gathering. Id.


                                                    31 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

 disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

 Recipients of this report should not disseminate or copy it without the Inspector General's approval. 


  Reisner and others that stated, "[T]here's at least one reporter who lmows this
  recommendation is on the calendar today. It's not clear to me how they found out, but I
  wanted you to be aware of that fact, in case there's going to be any delay in filing the
  case after it's authorized." April 14, 2010 E-mail from Scott Friestad to Robert Khuzami,
  attached as Exhibit 39. This e-mail wasforwardedtoMarlin.Cohen.andothers.Id.
  Friestad testified that he did not "recall for sure, but it was I believe a reporter from
  Bloomberg ... either Josh [Gallu] or David [Scheer]." Friestad Testimony Tr. at 14.
  Friestad testified that the reporter called him on April 14, and that the reporter did not
  indicate how they lmew this information. !d. During his OIG testimony, however,
  Friestad testified that the reporter did not specifically tell Friestad that he knew that
  Goldman was on the calendar, but only that there was "an interesting or important
  [collateralized debt obligation] case on the calendar today." !d. at 15. An attorney
  representing Bloomberg News stated to the OIG that Bloomberg News did not have
  advance notice of the SEC's action against Goldman prior to the complaint being filed.
  August 26,2010 Golden Telephone Call Memorandum, attached as Exhibit 40. The OIG
. also found that Bloomberg News did not publish any articles prior to the Commission's
  filing of its Goldman action about the SEC's investigation of Goldman.

         The OIG did find that, after the Goldman action was filed, at least one individual
 at the SEC divulged outside the Commission the fact that the vote authorizing the action
 against Goldman was 3 to 2, and that this fact became published in the news media.
 April 19, 2010 E-mail from Scott Friestad to Joan McKown, attached as Exhibit 41. The
 documents reviewed in this investigation do not indicate the source of this leak, and none
 of the witnesses in this investigation testified that they were aware of who might have
 leaked the fact that the Commission vote authorizing the Goldman action was 3 to 2. See,
 e.g., Cohen Testimony Tr. at 96; Henseler Testimony Tr. at 72; Davis Testimony Tr. at
                                                                                                             \',.
 33; Nisanci Testimony Tr. at 49-50.

         The OIG also found that, after the proposed Goldman settlement was approved by 

 the Commission, at least one individual at the SEC divulged outside the Commission the 

 fact that the vote approving the settlement with Goldman was 3 to 2, and this fact became 

 published in the news media. July 16, 2010 E-mail from Louise Story to John Nester, 

 attached as Exhibit 42. The documents reviewed in this investigation do not indicate the 

 source of this leak, and none of the witnesses in this investigation testified that they were 

 aware of who might have leaked the fact that the Commission vote accepting the 

 Goldman settlement offer was 3 to 2. See, e.g., Lench Testimony Tr. at 52, 79; Kelley 

 Testimony Tr. at 39-40; Delfm Testimony Tr. at 43; Aguilar Testimony Tr. at 17-18; 

 Casey Testimony Tr. at 17; Paredes Testimony Tr. at 16. 





                                                     32 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

IV. 	   THE SEC ENFORCEMENT INVESTIGATION OF GOLDMAN SACHS'
        SALE OF THE ABACUS COLLATERALIZED DEBT OBLIGATION

        On August 25,2008, the Headquarters Division of Enforcement staff opened an
investigation into potential misrepresentations by Goldman in connection with the
structuring and marketing of a collateralized debt obligation ("CDO") known as
ABACUS 2007-AC1 ("Abacus"). See April 29, 2010 HUB Report, attached as Exhibit
            LE
LE



LE

        -                       y	                                           g
apparent lack of disclosure by Goldman to investors that a hedge fund played a
significant role in selecting the Abacus portfolio. Exhibit 43 at 2. The Enforcement staff
also focused on the potential violations of the securities laws by Fabrice Tourre, the
Goldman vice president responsible for the structuring and marketing the Abacus CDO.
April 1, 2010 Action Memorandum, attached as Exhibit 44, at 1.

         In 2008, the Enforcement staff requested documents from Goldman and other
entities pursuant to this investigation, HO-10911. Exhibit 43 at 4. On February 23, 2009,
the Commission issued a Formal Order of Investigation for this matter. Exhibit 44, at ii.
After obtaining this Formal Order of Investigation, the staff took investigative testimony
in the matter throughout 2009. Exhibit 43 at 4.


                                 On July 28,2009, the Enforcement staff gave a Wells 

notice to Goldman. Exhibit 44 at ii. 11 


        Chairman Schapiro was aware of the Goldman matter by fall 2009. Schapiro
Testimony Tr. at 10. The case was designated a National Priority Case by the Division of
Enforcement, along with approximately sixty other investigations. Khuzami Testimony
Tr. at 9-10; November 24,2009 E-mail from Reid Muoio to                   attached as
Exhibit 45. In addition, Enforcement Director Robert Khuzami briefed Chairman
Schapiro on the Goldman matter at several oftheir weekly senior staff meetings.
Khuzami Testimony Tr. at 10.

        A September 17, 2009 e-mail from Stephen Cohen, a Senior Advisor to the
Chairman, to Reid Muoio, the Assistant Director assigned to the investigation, stated:
"The Chairman actually asked about [the Goldman] investigation specifically yesterday."
Set)ternb(~r 17 2009 E-mail from Stephen Cohen to Reid Muoio, attached as Exhibit 46.
                the Assistant Chief Litigation Counsel originally assigned to the Goldman
matter, wrote in an October 1 e-mail: "The Chairman apparently asked Cheryl [Scarboro,

11
         A Wells notice provides notice to a person or entity that the staff plans to recommend that the
Commission authorize an action against the person or entity for violations ofthe securities laws and
provides an opportunity for the person or entity to submit a statement to the staff concerning this
anticipated recommendation. 17 C.F.R. § 202.5(c).

                                                     33
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

the Associate Director assigned to the Goldman investigation] a couple days ago 'How is
the Goldman case coming?' which prompts a desire for speed." October 1,2009 E-mail
from                 to Lou Mejia, attached as Exhibit 47. Khuzami testified that
Chairman Schapiro asked about the status of the matter from time to time, but never
dictated the direction of the investigation. Khuzami Testimony Tr. at 10-11. Khuzami
testified that Chairman Schapiro has never intervened inappropriately in an investigation,
such as asking to bring a case before it was ready. !d. at 40.

        A. 	     Internal Disagreements Arose in Fall 2009 Concerning Which
                 Individuals Should Testify and Which Individuals Should Receive
                 Wells Notices

        On September 2,2009, Muoio wrote in an e-mail to others in the Enforcement
Division that "the very quickest" he expected the Goldman investigation to be on the
Commission Calendar was in November, and suggested that the target date for bringing
an action be moved ~er 2009 to December 2009. September 2, 2009 E-mail
from Reid Muoio to _               attached as Exhibit 48.



                               Muoio Testimony Tr. at 34.             testified that he
believed in fall of 2009 that the Enforcement staff should take the testimony of the
Goldman Manager and of a manager ("Hedge Fund Manager") at the hedge fund that
              in selecting the Abacus CDO portfolio, but that Muoio was reluctant to do
              estimony Tr. at 12-13. This testimony is supported by Muoio's September
2 e-mail in which he wrote that there were "a number of wild cards that could cause
further delay" in bringing an action in the investigation, including "the interest of
             expand the scope of the proposed             .,           to include additional
           and        defendants."         't 48.
                                                  Testimony Tr. at 18.
                                      the investigative staff as mostly a personality clash.
Scarboro Testimony Tr. at 15.

      Goldman provided written Wells submissions to the Enforcement staff on
September 10 and September 25, 2009, and met with the Enforcement staff on September
15,2009. Exhibit 44 at ii. The Enforcement staff gave a Wells notice to Tourre on
September 28,2009. Id. Tourre made a written Wells submission on October 26,2009,
and met with the staff on October 29,2009. !d.

                                                                          Fund Manager on October
                                                                                 attached as




                                                   34 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        B. 	     In November 2009, the Goldman Matter was Scheduled for the
                 December 17, 2009 Commission Meeting

        On November 13, 2009, Muoio reserved a spot on the Commission Calendar for
December 17, 2009 for the Commission to consider the Enforcement staff s
recommendation to sue Goldman and Tourre. November 13, 2009 E-mail from Elizabeth
Murphy to Reid Muoio, attached as Exhibit 50. On November 24, 2009, Muoio
circulated the Action Memorandum for this recommendation to other offices and
divisions for comment. November 24, 2009 E-mail from Reid Muoio to Enforcement
Action Memos, attached as Exhibit 51. On December 4,2009, Muoio sent this Action
Memorandum to the Office of the Secretary and confirmed that the Goldman matter
would be on the Commission Calendar for December 17, 2009. December 7, 2009
E-mail from Reid Muoio to ENF Staff         attached as Exhibit 52.

        The Enforcement staff had sent a subpoena for the Goldman Manager's testimony
on November 2. See December 7,2009 E-mail from                         to Reid Muoio,
attached as Exhibit 53. On December 4, after numerous attempts to schedule testimony,
the Goldman Manager's attorney represented to the Enforcement staff that, because of
the difficulties of the case, testimony in December was impossible. Id. Thus, the
investigative staff decided that it was not necessary to take the Goldman Manager's
testimony before going to the Commission with its recommendation to sue Goldman and
Tourre. Id.; Cohen Testimony Tr. at 32-33.




        c. 	     On December 8, 2009, the Enforcement Staff Removed the Goldman
                 Matter from the Commission Calendar in Order to Take the
                 Testimony of a Goldman Manager

       On December 8,2009, the Division of Enforcement decided to withdraw the
Goldman matter from the Commission Calendar. See December 8, 2009 E-mail from
Joan McKown to Cheryl Scarboro, attached as Exhibit 55; December 8, 2009 E-mail
from Joan McKown to                      and                    attached as Exhibit 56;
Exhibit 52. Muoio wrote in an e-mail to the Office of the Secretary: "In consultation
with the Trial Unit, it was determined that we should take testimony from [the Goldman
Manager] prior to making our recommendation. We had subpoenaed [the Goldman
Manager]'s testimony back in early November but were getting stonewalled." December

                                                   35 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

8, 2009 E-mail from Reid Muoio to OSS!aff1          attached as Exhibit 57. Muoio also
wrote in an e-mail to others in the Division of Enforcement: "At [Scarboro's] request we
pulled this recommendation from [the Commission Calendar] and scheduled [the
Goldman Manager]'s testimony for January 7." December 8, 2009 E-mail from Reid
Muoio to Mark Adler and Asst Ch Lit Cns! 2    attached as Exhibit 58.

        The testimony of the witnesses in this investigation is consistent with Muoio's
December 8, 2009 e-mail to the Office of the Secretary, which stated the reason for
pulling the Goldman matter from the Commission Calendar in December was so that the
Goldman Manager's testimony could be taken. Khuzami also confirmed in testimony
that the primary reason for pulling the matter from the calendar in December was to take
the Goldman Manager's testimony. Khuzami Testimony Tr. at 14. Lorin Reisner,
Deputy Director of the Division of Enforcement, testified that his view in December was
that the Enforcement staff should take the Goldman Manager's testimony before making
a recommendation to the Commission. Reisner Testimony Tr. at 15. Reisner also
testified that, to his recollection, the decision to take the matter off the Commission
Calendar in December related to internal issues within the Division of Enforcement and
did not have anything to do with any feedback from Commissioners or the Chairman. !d.
at 32. Scarboro testified:

                 This [Goldman] matter was pulled the first time solely
                 based on conversations that the staff members had with
                 each other about the best approach as it related to [the
                 Goldman Manager], whether to resolve it completely with
                 him at the same time or go forward with a recommendation
                 that might result in amending the complaint down the road
                 to add him. That's all this was. I'm aware of no
                 conversations with Commissioners about whether this was
                 a good or bad idea or how to manage that process.

Scarboro Testimony Tr. at 39. SrCnsl2              a staff attorney assigned to the Goldman 

matter, testified that the matter was taken off the Commission Calendar in December 

because it was decided to first take the Goldman Manager's testimony. _ 

Testimony Tr. at 25. 


        Cohen testified that either Muoio or Khuzami informed him that, based on
internal deliberations within the Division of Enforcement, it was determined that the
Goldman matter would be pulled off of the Commission calendar in order to take
Tourre's testimony. Cohen Testimony Tr. at 26.

       The day after the matter was pulled from the Commission Calendar and the
Goldman Manager's testimony was                          reassigned to be the trial
counsel for the Goldman matter. December 9,              from                 to
~tephe:n ~'VH'-'H, attached as Exhibit 59.




                                                   36 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.




        D. 	     Concerned About a Senate Inquiry and a News Article About
                 Goldman's CDO Transactions, the SEC Staff Rescheduled the
                 Goldman Matter for a January 28, 2010 Commission Meeting After
                 Taking a Goldman Manager's Testimony

         On December 22,2010, the SEC received an inquiry from Louise Story, a
journalist for The New York Times, concerning the SEC's investigation ofsy'!!thetic
CDOs. December 22, 2009 E-mail                          to Reid Muoio and _
_          attached as Exhibit 60. Muoio cautioned                the branch chief
assigned to the Goldman matter, and staff attorney         to be careful not to externally
disclose any information concerning the investigatIOn.     Two days later, the New York
Times published an article by Story and Morgenson discussing Goldman's sale of Abacus
CDOs, which Goldman had bet against fmancially. December 25,2009 E-mail from
Mary Schapiro to Robert Khuzami, attached as Exhibit 61. Khuzami forwarded the
article to Chairman Schapiro, noting in his e-mail, "ABACUS is the synthetic CDO deal
we are targeting to calendar in January." !d.

         Scarboro testified that with respect to the newspaper articles that had been written
about the matter, "it would have been nice to get our case done ... sooner rather than
later. . .. I think the staff would have liked to be able to show the world that they were on
top of this." Scarboro Testimony Tr. At 29. Calande testified:

                 In general on the SEC side, and in the enforcement
                 division, we do want to manage the press attention to our
                 cases, because that is part of deterring securities law
                 violations. ... [I]f we bring a good case we certainly want
                 to get good publicity for it, and we're careful about how we
                 announce them, and where and when, and so forth.

Calande Testimony Tr. at 32.

        Khuzami, however, expressed concern about the media coverage of an ongoing
investigation, and stated in his testimony, "[P]ublicity in general isn't a good thing. You
want to keep your investigations private and confidential. You don't want witnesses,
potential defendants, third parties, 8'ftithingS that can then color their testimony."
Khuzami Testimony Tr. at 16-17.              testified that once a matter under investigation
receives media attention, "witnesses become more cagey, you don't tend to have
cooperating witnesses as easily." _Testimony Tr. at 32-33.

       On January 4,2010, Muoio wrote to the Office ofthe Secretary, "We will be re­
sending this recommendation up to the Commission on Friday, January 8. ENF's Front
Office has asked that the matter be calendared for the second or third week in January."


                                                   37 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

January 4,2010 E-mail from Reid Muoio to OSSIaff1           attached as Exhibit 62.12 In
this e-mail, Muoio then asked the Office of the Secretary ifthe Goldman matter could be
submitted for the scheduled January 14th Closed Commission Meeting. Id. Muoio also
wrote in this e-mail, "This is a high-profile enforcement case that recently became time
sensitive." Id.

         Muoio testified that he did not recall why he wrote that the matter had recently
become time-sensitive. Muoio Testimony Tr. at 60-61. Scarboro similarly testified that
she did not know what Muoio was referring to when he wrote that the matter had recently
become time-sensitive, and that there was no point in time at which the Goldman matter
became time-sensitive to her. Scarboro Testimony Tr. at 27. Khuzami and Reisner each
testified that they did not know why Muoio wrote that the matter had recently become
time-sensitive. Khuzami Testimony Tr. at 24; Reisner Testimony Tr. at 27.

         Cohen, however, when asked in testimony why the Goldman matter had recently
become time-sensitive at the time of Muoio's e-mail, stated that the SEC staffhad
learned that the Senate Permanent Subcommittee on Investigations ("PSI") was
considering holding a hearing about Goldman in late January, and that the SEC staffwas
concerned that more public information would be aired relating to the investigation of the
Abacus CDOs. Cohen Testimony Tr. at 38-39. Cohen testified that the SEC was
concerned about a "public airing" of the same facts and witnesses as those in its own
investigation, and that the SEC would prefer that the facts be aired publicly "in an
organized fashion" in its own press release after a full investigation. Id. at 40-42. Cohen
testified that, in addition, the SEC was also concerned that there would be "a lot of
questions about where's the SEC on this." Id. at 40-41.

        Cohen's testimony that a potential PSI hearing regarding Goldman had increased
the SEC staffs desire to file the Goldman action quickly is supported bye-mails from
this time period. On January 4, Khuzami e-mailed Chairman Schapiro and others:

                  I've heard that Sen. Levin and the Permanent
                  Subcommittee on Investigations is preparing to haul
                  Goldman and other banks to a hearing where they will be
                  chastised for simultaneously selling mortgage products,
                  including CDOs and other structured products, at the same
                  time they were going short mortgages on a prop or other
                  basis. Late JanuarylFebruary is what I am hearing. Any
                  intell we can get on timing would be helpful, as we would
                  certainly want to file our Goldman case (which addresses

12
          Although Goldman n~alla~l:;l            was scheduled for            2010 and had not     been
taken at this time,
                                                     Muoio had expressed earlier in a December 24,
2009 e-mail                                         to send the memo               for calendaring in
early January.                                                                                     we
can always do a supplemental 

December 24,2009 E-mail from Reid Muoio to Robert Khuzami, attached as Exhibit 63. 


                                                   38
This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 some of these same issues) before the hearing, which will
                 put us on the offensive on this issue.

January 4,2010 E-mail from Robert Khuzami to Mary Schapiro, attached as Exhibit 64,
at 2. Khuzami testified that he may have learned that the PSI hearings were to be held in
late January or February from defense lawyers or ex-prosecutor friends. Khuzami
Testimony Tr. at 25. When asked what he meant by this e-mail, Khuzami testified:

                 [Y]ou always want to file your case before your evidence
                 gets splayed out publicly. It's bad for the integrity of the
                 case, bad for witnesses who hear other testimony, bad for
                 evidence that you may hold back and not include in your
                 complaint that gets played out, bad for third parties, bad for
                 settlement. ... And second of all, structured products,
                 mortgage-related cases, were a high priority of ours. I also
                 didn't want, you know, the case to be viewed as one we
                 only brought in reaction to what somebody else did.

Id. at 25-26.

        Julie Davis, Deputy Director for the Office of Legislative and Intergovernmental
Affairs, replied to Khuzami's e-mail:

                 I'm happy to check with PSI staff to see what they'll tell
                 us. This is somewhat delicate because they likely don't
                 want us to beat them to the punch either. Do we know if
                 they know anything about our case? Would we or they
                 benefit from talking to each other? I'm happy to probe
                 very softly (i.e. not mention our case at all- just informally
                 inquire about their hearing schedule) but wanted to make
                 sure we wouldn't prefer something more.

Exhibit 64 at 2. Khuzami wrote in response:

                 I doubt they know anything about our case. I don't think I
                 would want to have a chat with them about our respective
                 matters, since I don't trust them not to try to preempt us in
                 some way. The way it looks now, we are shooting for Jan.
                 21 to present our case to the Commission, so that is early
                 enough that I am hopeful we will beat them to the punch.
                 So, for now, just get a sense if you can of when they are
                 scheduled to hold their own hearing.

Id. at 1-2.



                                                   39 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

       Cohen suggested in a responding e-mail that the Goldman matter be calendared
for January 14, "to be safe, unless you think that is too soon?" Id. at 1. Khuzami replied,
"Too soon, and no real threat at this point that PSI is moving that fast. Plus, I will get the
heads up when it is scheduled from an outside source." Id.

        On January 5, 2010, Eric Spitler, Director of the SEC's Office of Legislative and
Intergovernmental Affairs, wrote in response to this series of e-mails, "Just for
information, the Senate will be in recess until January 19 so that week would be the
earliest they would likely schedule a hearing." !d. That same day, Cohen, Khuzami, and
Reisner agreed to calendar the Goldman matter for the January 28 Commission meeting.
January 5, 2010 E-mail from Stephen Cohen to Lorin Reisner and Robert Khuzami,
attached as Exhibit 65.

       On January 7, 2010, the Enforcement Staff took the testimony ofthe Goldman
Manager. HUB Report Excerpt for HO-I0911, attached as Exhibit 66. Later that day,
Muoio wrote in an e-mail, "Current pland [sic] is to calendar Abacus 2007-ACI for
January 28 with a view towards filing on Friday           29 or Monday February 1,
2010." January 7,2010 E-mail from Reid Muoio to                   attached as Exhibit 67.

        Muoio explained to Khuzami in a January 9,2010 e-mail that the Enforcement
staff had been receiving copies of documents produced to the Senate in connection with
the Senate's upcoming hearings. January 9, 2010 E-mail from Reid Muoio to Robert
Khuzami, attached as Exhibit 68. Muoio also informed Khuzami in this e-mail that
Goldman's outside counsel was scheduled to meet with Senate staffers the week of
January 25 to briefthe Senate staffers. Id.

        On January 15,2010, Muoio informed Cohen, Khuzami, Reisner, and others in an
e-mail: "According to outside counsel ... , Goldman has provided copies to the Senate of
all documents provided to the SEC pursuant to a me-too request. Today we learned that
Goldman is considering providing copies of our investigative transcripts." January 15,
2010 E-mail from Reid Muoio to Robert Khuzami, attached as Exhibit 69. Muoio
confirmed that the particular Senate subcommittee receiving these documents was PSI.
January 15,2010 E-mail from Sr Cnsl2           to Reid Muoio and Sr Cnsl1
attached as Exhibit 70.

        Khuzami responded to Muoio via e-mail, "I thought about this after our meeting
last night, and the [Senate] inquiry may be one add'l reason to proceed with the case and
Wells [the Goldman Manager] on parallel tracks, assuming that is the result we reach
with [the Goldman Manager]." Exhibit 69.

        Cohen responded to Muoio's e-mail, "We really need to bring this case on the
28th..." January 15,2010 E-mail from Stephen Cohen to Reid Muoio, attached as
Exhibit 71. Cohen testified that it is likely that he wrote this e-mail because of a possible
upcoming PSI hearing, and also possibly because, if the Commission were unable to
address the Goldman matter on January 28, there may have been very few meetings in the
near future where there would be a full Commission. Cohen Testimony Tr. at 46-49.

                                                   40 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Muoio responded to Cohen's e-mail, "Agreed. We are meeting again to discuss the
matter again on Tuesday 1119 at 4:30 pm with Rob and Lorin and members of the Trial
Unit." Id.13

        Chief of Staff Nisanci responded to Muoio's e-mail about Goldman providing
documents to the Senate by writing: "Right, so all the more important to bring the case."
January 15,2010 E-mail from Didem Nisanci to Stephen Cohen, attached as Exhibit 72.
Cohen wrote in response to Nisanci, "We're pressing them to bring it at the next closed
meeting on the 28th. There are some internal issues about which individuals to charge
that they are working through. I'll let you know if that does NOT happen." Id.
(emphasis in original). Davis then wrote in response, "For what it's worth, the soft touch
intel we're getting from PSI is that they are not doing a hearing on this anytime soon."
Id. Timothy Henseler, another Deputy Director in the Office of Legislative and
Intergovernmental Affairs, concurred in an e-mail, "Which knowing PSI is almost
certainly accurate given that they are just getting large volume of docs (they almost
certainly wouldn't hold the hearing w/o going through them in some level of detail)." Id.

        Later that day, Cohen wrote Muoio, "Feel free to share with ENF folks that the
very soft intelligence our folks are getting is that PSI does not intend to do a hearing but
rather an investigation and PSI is probably the most conscientious committee about
safeguarding nonpublic information. That being said, we should still operate as if our
'stuff may get out to the public before we want it to." January 15,2010 E-mail from
Stephen Cohen to Reid Muoio, attached as Exhibit 73.

         On January 19,2010, Muoio wrote to the Office of the Secretary: "We met again
this afternoon with the Front Office to discuss [the Goldman investigation]. We would
like to have our recommendation against Goldman and Tourre considered at the January
28 closed commission meeting and will get you a final action memo within the next day
or to [sic]. We will then place Wells calls to [the Goldman Manager] and perhaps one
additional individual defendant." January 19, 2010 E-mail from Reid Muoio
_          and Cheryl Scarboro, attached as Exhibit 74.                 .

        On January 22, Muoio suggested in an e-mail to senior Enforcement staff that the
SEC file its complaint against Goldman on Friday, January 29, arguing that the "24-7
news cycle" makes irrelevant the SEC's traditional approach of avoiding filing
significant Enforcement matters on a Fridays. January 22,2010 E-mail from Reid Muoio
to Cheryl Scarboro, attached as Exhibit 75; January 22,2010 E-mail from Reid Muoio to
Kenneth Lench, attached as Exhibit 76. Scarboro and Lench disagreed with this
argument. In testimony, Scarboro denied that the SEC would "typically file our cases on

13        In contrast to the documents and the testimony described above, Muoio testified that he did not
believe that the PSI inquiry would impact the SEC's Abacus investigation, and that it was "ridiculous" to
suggest that his view of the timing of filing the Goldman action related to the PSI inquiry. Muoio
Testimony Tr. at 68-69,72. Muoio testified that he believed that the case against Goldman was ready to
file in December 2009, and that he was interested in filing the case as soon as the SEC could do so. Id. at
67,72-73.


                                                     41 

This documen:t is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Fridays just because those aren't the best news days." Scarboro Testimony Tr. at 31.
Scarboro clarified, "[T]here's a deterrent value in what we do ... there are certain days of
the week that you're likely to get more coverage than others. So, that's all." ld. Lench
testified that his own practice; historically, was not to file cases on Fridays, because he
assumed that the S          newspapers were not going to be as widely read. Lench
Testimony Tr. at 21.            testified that the SEC had a practice of not filing major
actions on a Friday,                     more bang for the buck" in the news media by
filing earlier in the week.            estimony Tr. at 33_34. 14

        On Sunday, January 24, 2010, Cohen e-mailed Chairman Schapiro, "We have
some good cases coming down the pike in the next couple of weeks. Goldmanlcdo this
week." January 24,2010 E-mail from Stephen Cohen to Mary Schapiro, attached as
Exhibit 77. Chairman Schapiro replied, "I am very anxious to get the GS case out." ld.
Cohen then explained to Chairman Schapiro, "There is still a question about suing [the
Goldman Manager]. I think the staff intends to wells him, but they will not wait to move
forward." ld. Cohen testified that, based upon his conversations with Chairman Schapiro
in January, Chairman Schapiro had been very disappointed the New York Times article
made public the issues being investigated by the SEC, and that Schapiro "was anxious for
us to bring a case, if we had one, so that our actions were part of the public discourse on
it." Cohen Testimony Tr. at 58-59.

        Later that Sunday night, Cohen asked Muoio via e-mail, "When would you file
Goldman if approved?" January 25, 2010 E-mail from Stephen Cohen to Reid Muoio,
attached as Exhibit 78. Muoio responded, "My preference is for this Friday morning.
But others on the team prefer the following Monday." ld. Muoio further explained in a
follow-up e-mail his preference for Friday, "[M]y view is based upon 1) a general sense
that our age old preference for avoiding Friday filing dates does not make much sense in
the Internet age where our audience at least is on a 24:-7 news feed and 2) a more specific
desire to file in advance of the annual conference of the American Securitization Forum
which kicks offnext Monday morning." ld. Cohen responded, "Thanks. I'll poll folks
and let you know our thoughts." ld. Cohen then sent a follow-up e-mail to Muoio, "Any
chance we can file Thursday afternoon?" January 25,2010 E-mail from Stephen Cohen
to Reid Muoio, attached as Exhibit 79. Muoio responded, "Works for me. You might
want to check with Lorin." ld.

        Cohen then e-mailed Reisner to ask ifhe wanted to file the Goldman matter on
Thursday, January 28. January 26,2010 E-mail from Stephen Cohen to Lorin Reisner,
attached as Exhibit 80. Reisner responded that he preferred to file Monday, February 1,
because he was not sure that the complaint against Goldman Sachs was ready to be filed.
ld; January 26,2010 E-mail from Stephen Cohen to Myron Marlin, attached as Exhibit
81. Cohen wrote in a January 26,2010 e-mail to Myron Marlin, the SEC's Director of
Communications, that Cohen "flagged [for Lorin] the issue we discussed, and [Lorin]
will discuss with Rob [Khuzami]." Exhibit 81. Cohen testified that he suspected that this
"issue" was a belief by Marlin that, if the SEC waited until Monday, February 1, to file

14
        As discussed below, the SEC ultimately did file its action against Goldman on a Friday (April 16).

                                                    42 

 This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
 disclosure to third parties. No redaction has been performed by the Office of Inspector General.
 Recipients of this report should not disseminate or copy it without the Inspector General's approval.

 against Goldman, "the story would get out, and we wouldn't have control of the story ...
 with our press release and complaint. The press would get hold of it." Cohen Testimony
 Tr. at 56-57. Marlin denied recollection of what the "issue" referenced in Cohen's e-mail
 was, but testified that it was common for him to talk about not waiting to issue "big
 cases" over the weekend. Marlin Testimony Tr. at 17-18.

         On January 26, 201                  in an e-mail to Muoio, "I hear the chairman
  wants to file [the Goldman action]          [January 28], so you'll need to have
  someone standing by at the courthouse, I guess." January 26,2010 E-mail from
_         to Reid Muoio, attached as Exhibit 82.

         On January 26,2010, members of the Enforcement staff met with Commissioner
 Troy Paredes to discuss the matter. See January 25, 2010 E-mail from Reid Muoio to
                   attached as Exhibit 83.                        discussed
                        case against Goldman, and expressed a ~~fI                  ••
                                                and Goldman.
 42-44; Scarboro Testimony Tr. at 35;          Testimony Tr. at 46-48;            estimony
 Tr. at 38-39. As discussed below                        a role in the staffs decision to
 postpone bringing to the Commission a recommendation to sue Goldman and Tourre.

         E. 	     After Removing the Goldman Matter From the January Commission
                  Calendar in Order to Conduct Further Investigatory Work, the
                  Enforcement Staff"Rescheduled the Matter for the April 14, 2010
                  Commission Calendar

                  1. 	     On January 27, 2010, the Enforcement Staff Removed the
                           Matter from the Commission Calendar

         On January 27,2010, the day before the Commission meeting in which the
 Goldman recommendation was to be heard, Muoio sent an e-mail to Scarboro and Lench
 labeled as "urgent" stating, "Lorin is available right now through 12:00 noon to discuss
 whether or not to pull the recommendation from tomorrow's calendar, which he is
 inclined to do." January 27,2010 E-mail from Reid Muoio to Cheryl Scarboro and
 Kenneth Lench, attached as Exhibit 84. A few minutes after Muoio's e-mail, Cohen sent
 an e-mail to the Office of the Secretary directing that the Goldman matter be pulled from
 the Commission Calendar, "at the request of the enf division. It will be rescheduled
 shortly." January 27, 2010 E-mail from Stephen Cohen to os Staff 1        attached as 

 Exhibit 85. 


        When asked by a colleague in the Division of Trading and Markets why the
 matter was pulled, Muoio wrote in an e-mail,
                                     then . the case all at once." January 27,2010
 E-mail from Reid.lHu.v.lV                    and                , attached as Exhibit
 86. Similarly, 	            was asked by a colleague why the matter was pulled,
 _replied, 	                     ·ve time to                              January 28, 

 2010 E-mail from                 to            attached as Exhibit 87. 


                                                    43
    This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

    disclosure to third parties. No redaction has been performed by the Office oflnspector General. 

    Recipients of this report should not disseminate or copy it without the Inspector General's approval. 


          Khuzami testified that there were two reasons that the staff pulled the matter from
    the Commission Calendar in J         "first and foremost," to     a sworn statement from

           in order to strengthen the SEC's case against Goldman; and secondly, to
decide whether or not to charge the Goldman Manager. Khuzami~. at 21­
22, 33-34; Exhibit 44 at 11. Khuzami testified that Commissioner.--expressed
_ a b o u t the SEC stafrs~eory against Goldman. !d. at 34.
The Enforcement staff thought that greater consideration should be given to charging the
                           LE

LE

Lt:




              Lench Testimony Tr. at 23. Lench also recalled there being discussions in 

    January about whether to file the case . Goldman and Tourre u·.lllU."'UJ'UL~"J 


                  Id. at 24. Lench testified that he did not recall feedback from the
    Commissioners concerning the Goldman Manager at this time, but that he may not have
    been privy to discussions that other people in the Division of Enforcement had with the
    Commissioners. !d. at 23-24.

            Scarboro testified, "Although I don't remember specifically why we decided to
    pull [the Goldman matter] the second time, it's my recollection that there were again,
    issues relating to aspects of the recommendation having nothing to do with timing; and
    that's all I can tell you about that." Scarboro Testimony Tr. at 39. Scarboro also testified
                                                                                 LE

LE
i
I




            Chairman Schapiro testified that she believed that the matter was taken off of the
    calendar in January because there was interest among other Commissioners not to bring
    the action in a piecemeal matter, but rather to bring the action against Goldman and all
    chargeable individuals at once.            Testimony Tr. at 12-13. As discussed above,

                           before the January 28 Commission meeting at which the 

    Goldman matter was to have been formally considered. 


            Cohen testified that, although the Enforcement Division made the decision in
    January to pull the Goldman matter from the Commission Calendar, this decision was
    attributable to feedback from the Commissioners and their counsels. Cohen Testimony
    Tr. at 62-63. Cohen testified that there was a lot of discussion on January 26 and 27
    among the Commissioners, Commissioners' counsel,and the Enforcement staff about the
    Goldman matter. !d. at 60. Cohen testified:



                                                        44
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 I think each office had some questions, issues, or concerns
                 that they were grappling with. And I think there developed
                 a consensus by Wednesday morning, the 27th, that the
                 Commission would benefit in putting this off until a later
                 time. ... I think, to my recollection, ... what pushed us to
                 agree to take it off the calendar was a view that there was a
                 lot of questions about [the Goldman Manager] and whether
                 there were going to be any other individuals. ... And a
                 number of Commissioners believed, given that this was
                 going to be a case receiving a lot of public scrutiny, we
                 should go forward with our full or best foot ... I think
                 there was some discussion about whether to Wells [the
                 Goldman Manager] .... And I think the conclusion­
                 ultimately perhaps unanimous; if not, a majority view ­
                 was that we should really wait until we have the full case
                 that we may bring. ... I remember at least two
                 Commissioners - I don't remember which ones - "~'~~U6'




!d. at 60-62. Cohen testified that Chairman Schapiro shared with him a conversation she
had with Commissioner~hich                                                   the view that the
SEC should not bring the case piecemeal, but rather, all together. ld. at 62. Cohen
testified that he had conversations on this issue with counsels to other Commissioners as
well. ld. Cohen testified that obtaining affidavits frorrfillilllwas also an issue for the
investigation at that time, but that the driving force behind the pulling of the Goldman
matter from the Commission calendar in               was the feedback from the
                                                                                           !d.


                 2. 	     The Enforcement Staff Took Further Investigative Steps and
                          Analyzed a Goldman Manager's Potential Liability

        The staff gave a Wells notice to the Goldman            on January 29, 2010. See
February 16,2010 E-mail from Reid Muoio to                       attached as Exhibit 88.
The Goldman Manager made a Wells submission on February 24,2010 and met with the
staff on March 4, 2010. See Exhibit 44 at ii. The day after this Wells meeting, Khuzami
and Reisner asked the Enforcement staff assigned to the investigation to prepare a
memorandum analyzing the Goldman Manager's possible liability. March 5, 2010
E-mail from Lorin Reisner to Reid Muoio, attached as Exhibit 89. _testified that

                                                   45 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

Recipients of this report should not disseminate or copy it without the Inspector General's approval. 


there were subsequent meetings among Khuzami, Reisner, and the Enforcement
investigative team on this topic, and that there "was a phenomenal amount of thought and
care put into the            whether to charge the Goldman Manager. _           Testimony
Tr. at 62; see                estimony Tr. at 39-40. Muoio testified that "the Front Office
personally                evidence" as to whether or not to charge the Goldman Manager,
and that it was clear that, "both Rob Khuzami and Lorin Reisner had spent quality time
with the record." Muoio Testimony Tr. at 90-92.

        In addition to the staffs work concerning the Goldman Manager, the staff also
traveled to Germany in February 2010 to secure affidavits fronP.'md another entity
that invested in the Abacus CDO. March 8, 2010 E-mail from Reid Muoio to _
_       and                               attached as Exhibit 90; Khuzami Testimony Tr.
           LE

LE




                 3. 	     After Concluding its Investigative Steps, the Enforcement Staff
                          Rescheduled the Goldman Matter for the April 14, 2010
                          Commission Calendar

                                        the Enforcement staff assigned to the matter
                                     int;nrnr'\pn

                                                              action against the
Goldman Manager. March 23,2010 E-mail                              to Reid Muoio,
attached as Exhibit 92. The next day, Muoio asked the Office of the Secretary to reserve
a spot on the Commission Calendar for April 14 to consider the Goldman matter. March
24, 2010 E-mail from Reid Muoio to                attached as Exhibit 93. On March 26,
Muoio circulated, for review by other SEC divisions and offices, the Action
Memorandum recommending that the Commission file an action against Goldman and
Tourre. March 26, 2010 E-mail from Reid Muoio to Enforcement Action Memos,
attached as Exhibit 94.

        On April 1, the Enforcement staff submitted the Action Memorandum to the
Commission recommending that the Commission file a civil action against Goldman and
Tourre. Exhibit 44 at i. On April 8, in an e-mail cirCulatinm,.complaint against
Goldman, Muoio wrote that his group planned to send it to          in New York to be
filed "either the afternoon of Wednesday April 14 or morning of Thursday April 15."
April 8,2010 E-mail from Reid Muoio to Lorin Reisner, attached as Exhibit 95.




                                                    46 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

Recipients of this report should not disseminate or copy it without the Inspector General's approval. 


                 4. 	     The SEC Staff Took Steps to Ensure that Pauline Calande, on
                          a Detail to the Senate Permanent Subcommittee on
                          Investigations from the SEC, Did Not Reveal Information
                          Regarding the SEC's Investigation to the Senate

        On March 15, Pauline Calande, Counsel to the Director and Deputy Director of
the Division of Enforcement, began a detail at PSI. Calande Testimony Tr. at 10. Prior
~n February 25,2010, Calande sought advice f r o m _
~egarding a potential detail for herself at PSI as to "any limits
there may be on sharing info about completed and ongoing SEC investigations into the
same subject matters." February 25, 2010 E-mail from Pauline Calande to _
_       attached as Exhibit 96. Henseler advised Calande in an e-mail later that day, "To
the extent you have any non-public info about SEC investigations, I would think you
would not be permitted to share that with them." February 25, 2010 E-mail from
Timothy Henseler to Pauline Calande and 	                    attached as Exhibit 97.
also advised Calande that, as an SEC employee, she was subject to the nondisclosure
provisions of the Securities Act. !d. Calande testified that it was made clear to her that
she could not convey to PSI information she had about SEC investigations. Calande
Testimony Tr. at 24-25.

        On April 7, Calande wrote an e-mail to Muoio and Henseler stating that PSI was
holding an April 27 hearing on Goldman's role in the fmancial crisis, would start
interviewing Goldman witnesses on April 9, and was presently unaware of the SEC's
Goldman investigation. April 7, 2010 E-mail from Pauline Calande to Timothy Henseler
and Reid Muoio, attached as Exhibit 98. Calande also stated in this e-mail that she would
like to disclose the SEC's Goldman investigation to PSI, because "PSI will learn of the
SEC investigation on Friday anyway when the first witness comes in, but since time is
short I wanted to see what you think." Id. Calande testified that she learned of the SEC's
Goldman investigation prior to her beginning her detail at PSI. Calande Testimony Tr. at
12,17-19.

         Muoio forwarded Calande's April 7 e-mail to Lench, Scarboro, and Reisner, and
wrote that, "we are shooting to file out[sic] litigated action against Goldman and Tourre
relating to ABACUS 2007-AC1 on or about April 14." Exhibit 98. Henseler forwarded
Calande's e-mail to Khuzami, Cohen, SEC General Counsel David Becker, and others,
stating that he planned to call Calande and tell her that, as was discussed prior to her
taking the detail to PSI, all non-public information she obtained while at the SEC must
remain non-public and that she could not disclose the fact of the SEC's Goldman
investigation. April 7, 2010 E-mail from Timothy Henseler to Robert Khuzami, attached
as Exhibit 99. Cohen expressed agreement with Henseler and stated that only the
Commission has the authority to allow Calande to disclose non-public information to the
PSI. !d. Reisner also expressed agreement with Henseler and stated that any such
request from PSI had to come through formal channels. April 7, 2010 E-mail from Lorin
Reisner to Timothy Henseler, attached as Exhibit 100. Henseler and Calande both
testified that Henseler called Calande and told her that she could not tell PSI about the
SEC's investigation. Henseler Testimony Tr. at 39-40; Calande Testimony Tr. at 35.

                                                   47 

This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Calande testified that she did not disclose any information to PSI about the SEC's
Goldman investigation. !d. at 35-36. Calande also testified that she did not reveal any
information about PSI's substantive investigation of Goldman to the SEC. Id. at 26_27. 15


v. 	     ON FRIDAY APRIL 16,2010, THE COMMISSION FILED ITS
         COMPLAINT AGAINST GOLDMAN SACHS

         A. 	     The Commission Delayed its Filing Date from Thursday April 15 to
                  Friday April 16

         The Commission approved the filing of the Goldman action on Wednesday
afternoon, April 14, in a 3 to 2 vote. April 14, 2010 Closed Commission Meeting
Minutes, attached as Exhibit 105, at 5. As discussed below, the staff postponed its
anticipated filing date of the Goldman action from April 15 to April 16, in order to avoid
filing the action on the same day as another Enforcement action the Commission was
bringing in tandem with the NYAG.

        On April 12, 2010, the SEC learned that the NYAG planned to announce on April
15 a $7 million settlement with Quadrangle for its alleged involvement in kickbacks
relating to pension fund investments. April 12, 2010 E-mail from David Rosenfeld to
Robert Khuzami, attached as Exhibit 106. An Associate Regional Director in the New
York Regional Office informed Khuzami that the SEC staff could be ready to file its own
proposed settlement with Quadrangle for similar alleged violations on the same day that
the NYAG would announce its settlement. Id. Later on April 12, the SEC learned that
the NYAG intended to announce its settlement with Quadrangle on Wednesday, April 14,
instead of Thursday, April 15. April 12, 2010 E-mail from David Rosenfeld to Robert
Khuzami, attached as Exhibit 107.

15
         On other occasions during the Goldman investigation in 2010, the SEC staff took care not to share
infonnation about its investigation with PSI. On February 22, 2010, Senator Carl Levin, chainnan of PSI,
requested assistance from Rick Bookstaber, Senior Policy Adviser in the SEC's Risk, Strategy and
Financial Innovation, in connection with PSI's inquiry of Goldman. February 22, 2010 E-mail from
Timothy Henseler to                    attached as Exhibit 101. Henseler testified that after discussing the
issue withlilllll\ll Hense1er infonned PSI that Bookstaber would not be able to assist with PSI's inquiry of
Goldman. Henseler Testimony Tr. at 28-29.

          On March 18, Muoio infonned senior Enforcement staff that PSI had contacted one of the
purchasers of the Abacus CDOs concerning the purchase from Goldman. March 18, 2010 E-mail from
Reid Muoio to Lorin Reisner and Kenneth Lench, attached as Exhibit 102. Muoio and Lench expressed an
inclination not to contact PSI concerning Goldman until the SEC filed its complaint against Goldman. !d.

         Shortly after the Goldman action was announced, Henseler wrote in an e-mail that he had received
voicemails from PSI seeking a briefing as soon as possible concerning anything the SEC could say pubIlcly
about the Goldman investigation. April 16, 20 10 E-mail from Timothy Henseler to Didem Nisanci,
attached as Exhibit 103. The next day, Muoio wrote in an e-mail on this topic, "We've known about the
PSI investigation for some time. But we have had no contact with them to date." April 17, 2010 E-mail
from Timothy Hense1er to Kenneth Lench, attached as Exhibit 104.


                                                    48 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

         Khuzami infonned Chainnan Schapiro that the SEC staff planned to file its
settlement with Quadrangle on Wednesday at the same time that the NYAG announced
its settlement with Quadrangle. April 12, 2010 E-mail from Robert Khuzami to Mary
Schapiro, attached as Exhibit 108. The Chainnan responded, "Let's make sure we don't
announce Goldman same day." ld. Chainnan Schapiro testified that the Quadrangle case
was an important case for the NYAG, and an important case for the SEC as well.
Schapiro Testimony Tr. at 17. Chainnan Schapiro testified that she did not want to
detract from the announcement of a Quadrangle case by announcing the Goldman case at
the same time, and stated, "I was a little worried that the Attorney General would be very
upset if we announced multiple cases in the same day." !d. at 17.

         Cohen similarly testified that Chainnan Schapiro did not want to file the Goldman
complaint on the same day as the announcement of the Quadrangle settlement because:
(1) "our goal is always to get our enforcement message out widely," and bringing two
cases on the same day would lessen that and confuse the media's focus; and (2) Chainnan
Schapiro was concerned "that [New York Attorney General Andrew] Cuomo would take
it that we brought Goldman on the same day, even though it wouldn't be true, to beat out
his Quadrangle case," and that Cuomo "would be offended and angry." Cohen
Testimony Tr. at 84-85. Cohen also testified that the staffwas not ready to file the
complaint on Wednesday, April 14, and that Reisner worked on the complaint throughout
the rest of the week. ld. at 86,88.

        Khuzami testified that the SEC did not want both Goldman and Quadrangle
announced on the same day because, from his perspective, of the overwhelming amount
ofbriefmg and other work involved for each matter. Khuzami Testimony Tr. at 45.
Khuzami testified that, additionally, the SEC's Office of Public Affairs did not want the
SEC to announce two significant cases on the same day because the press would be
diluted, and because of the logistics involved in coordinating the publicity of the SEC's
actions. !d. Khuzami did not recall being concerned that announcing Goldman on the
same day as Quadrangle would upset the NYAG by Goldman upstaging Quadrangle. ld.
at 45-46.

         Khuzami acknowledged in testimony that there is a deterrent effect when the SEC
announces an enforcement action and the action receives press coverage, and that, "the
public taxpayers view it as ... their tax dollars are bet,'i,for the purposes for which
they were intended." Khuzami Testimony Tr. at 86.              . also testified that the SEC
has an .         .     . their enforcement calff'M,eess attention for the purpose of 

deterrence.·           Testimony Tr. at 12-13.         .    stated that there is a benefit to the 

Enforcement DiviSIOn for the SEC's public reputation to be a good one, 
                 it is
important for the SEC to publicize its significant actions. ld. at 13-14,23. 
 •
testified that there was a particular interest on the part of the Enforcement Division to 

show that the SEC is working on and bringing matters related to the financial crisis. !d. 

at 21. 


        In Khuzarni's response to Chainnan Schapiro's April 12 e-mail about making
sure that the SEC does not announce the Goldman action on the same day as Quadrangle,

                                                   49 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

he wrote that the SEC would bring the Quadrangle action on Wednesday, and the
Goldman action "likely" on Thursday. Exhibit 108. This anticipated schedule is
confirmed by an e-mail sent by Cohen to Chairman Schapiro on the morning of April 13,
in which he wrote that the SEC would file the Quadrangle action on Wednesday and the
Goldman action on Thursday. April 13, 2010 E-mail from Stephen Cohen to Mary
Schapiro, attached as Exhibit 109.

         In the evening of Apri~ wrote in an e-mail to a trial attorney in the
Division of Enforcement that ~oio, and the other staff attorney assigned to the
investigation preferred to file the Goldman action Thursday morning, but that he had not
received word whether the action would be filed on Wednesday afternoon after the
Commission                         Goldman, or on Thursday. April 13, 2010 E-mail from
Sr Cnsl2
                  to              attached as Exhibit 110. Late on April 13, Reisner, who
had already provided comments on the draft complaint that day, informed Muoio via
e-mail that he would have additional comments on the draft complaint, but would not be
 able to get the comments to Muoio until late at night on April 14. April 13, 2010 E-mail
from Lorin Reisner to Reid Muoio, attached as Exhibit 111.

       On the afternoon of April 13, the SEC learned that the NYAG had changed its
schedule again, and that it now planned to announce the Quadrangle settlement on
Thursday, April 15. April 13, 2010 E-mail from David Rosenfeld to Robert Khuzami,
attached as Exhibit 112. Cohen testified that, once the NYAG moved the Quadrangle
announcement date to Thursday, April 15, the SEC decided to delay the Goldman
announcement until Friday, April 16. Cohen Testimony Tr. at 88. Cohen testified that he
was "crystal clear" that the Goldman filing was delayed from Thursday until Friday
because of the NYAG's decision to postpone its announcement of the Quadrangle
settlement until Thursday. Id. at 90.

        On the morning of Wednesday, April 14, Marlin wrote in an e-mail to John
Nester, the Director of the SEC's Office of Public Affairs, that the Goldman action would
be filed on Friday, April 16. April 14, 2010 E-mail from Myron Marlin to John Nester,
attached as Exhibit 113. Marlin testified that, after a series of discussions, it was
Chairman Schapiro who made the ultimate decision to file the Goldman action on April
16. Marlin Testimony Tr. at 22, 25, 29. Marlin testified that Chairman Schapiro thought
that April 16 would be a better day for the SEC to file the Goldman action because the
Quadrangle action was· being announced on April 15, and Chairman Schapiro believed
that announcing Goldman on the same day as Quadrangle would "ruin the relationship
with Cuomo." !d. at 22. Marlin testified that, in his own view, announcing the Goldman
action on the same day as the Quadrangle action and another SEC press conference
would be "too much for the press to cover anything." !d. at 22-23.

        Marlin recalled that "the only person I remember pushing back a little [against the
decision to move the Goldman filing from April 15 to April 16] was Rob [Khuzami],
because he thought that the [OIG] Stanford report would overshadow the Goldman case."
!d. at 25. Marlin testified that his own concern regarding that issue was that the SEC
would be criticized for bringing the Goldman action on the same day that the 01G's

                                                   50 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Report ofInvestigation No. 526, "Investigation ofthe SEC's Response to Concerns
Regarding Robert Allen Stanford's Alleged Ponzi Scheme," ("OIG Stanford Report")
was released. ld. at 27-28.

        Khuzami testified that once the SEC learned that the NYAG had moved its
Quadrangle announcement to Thursday, the SEC decided to file the Goldman matter on
Friday. Khuzami Testimony Tr. at 49-50. Khuzami further testified that he believed the
actual decision to file Goldman on Friday was made by the Office of Public Affairs, but
with input from the Division of Enforcement. ld. at 53-54.

                 testified that it was his view to not wait until Monday, April 19, to file
              action because of the risk of a leak to the media about the Goldman action.
 •       Testimony Tr. at 34. _            similarly testified that he was interested,,".
as soon as possible to minimize the risk of leaks and resulting insider trading.
Testimony Tr. at 66-67.

        On Wednesday night, April 14, a few hours after the Commission had authorized
the action, _        wrote in an e-mail to Muoio, Reisner, Lench, and others, "[F]yi - I
understand the current        is to file the [Goldman] complaint on Friday morning." April
14, 2010 E-mail from                       to Reid Muoio, attached as Exhibit 114. Lench
forwarded this e-mail                      and wrote: "Are      concerned we will lose press
by filing Friday?                                                      don't know whose
idea it was to file Friday, but I know we usually don't." ld. Lench testified that when he
wrote

                                                         somewhat high­
                 profile matter... There is a risk when you go out in a very
                 public way, where            . . attention to a case
                 you're filing. ...                                   if it's a
                 ~ofile case,
                 _ a n d it's not good for the enforcement program.

Lench Testimony Tr. at 42.

        Cohen expressed a similar concern in an April 11 e-mail to Chairman Schapiro, in
which Cohen wrote that he and Marlin believed that holding a press conference for the
Goldman action was a "double-edged sword." April 11, 2010 E-mail from Stephen
Cohen to Mary Schapiro, attached as Exhibit 115. Cohen testified that they believed a
press conference for the Goldman action could be a double-edged sword in that: on one
hand, this could be viewed as a significant case arising out of the credit crisis that would
warrant the wide audience of a press conference; on the other hand, however, some at the
SEC believed that the public might view the SEC's case against Goldman as "not that big
of a deal," because of the relatively small size of the transaction in comparison with the
size of Goldman. Cohen Testimony Tr. at 81. Marlin testified that some people at the
SEC believed that "this was a narrow case, that we could be criticized for bringing such a


                                                   51 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

narrow case after a two-year investigation and that we could be accused of hyping it if we
did a press conference." Marlin Testimony Tr. at 21.

        Upon learning on Wednesday night, April 14, that the SEC had decided to file the
Goldman action on Friday instead of Thursday, Lench also asked_ and Muoio in
an e-mail whose idea it was to file the complaint on Friday. April 14, 2010 E-mail from
Kenneth Lench to                     attached as Exhibit 116. Muoio responded, "Front
office. Just don't know their thinking." Id. Muoio testified that his recollection was that
the SEC filed its action against Goldman on Friday, April 16, because the complaint
against Goldman was not ready to file on Thursday. Muoio Testimony Tr. at 119-125.
Muoio testified that he did not recall why he would not have known the Front Office's
thinking as to why the complaint was to be filed on Friday instead of Thursday. Id. at
128.

       On Thursday morning,
to Nester, Cohen, Khuzami, and
                                    ifi'ieat
                                           2:38 a.m., Marlin e-mailed a detailed timeline
                                     . of the anticipated events for the remainder of
that week. April 15, 2010 E-mail from Myron Marlin to John Nester, attached as Exhibit
117. Events on this timeline included the SEC's filing and announcement of the
Quadrangle settlement Thursday morning, filing of the Goldman complaint Friday
morning at 9:30 a.m., announcement of the Goldman filing at 9:45 a.m., and release of
the OIG Stanford Report on Friday afternoon. !d. The Enforcement staff, including

April 15.
Exhibit 118;
            se,A,.5,
Reisner, continued to review and edit the c~t Goldman Sachs on Thursday,
                        2010 E-mail f r o m _ t o SrCnsl1
                      Testimony Tr. at 68.
                                                                             attached as


        When _           went to the SDNY courthouse to file the SEC's complaint against
Goldman at 9:30 a.m. on Friday morning, April 16, he was told by the clerk at SDNY
that he could not file the complaint because it was not _         name on the complaint,
but that of another SEC attorney. _         Testimony Tr. at 60-62. This resulted in an
approximately one-hour delay in the filing of the complaint, as Enforcement located
another SEC staff member in the SEC's New York Regional Office whose name was put
on the complaint and who signed and submitted the complaint with SDNY. Id. at 62-63;
Reisner Testimony Tr. at 75-76. A Financial Clerk at SDNY stated that SDNY's
electronic case assignment system indicates that the SEC's complaint against Goldman
was filed at the courthouse at 10:29 a.m. on April 16. SDNY Interview Memorandum at
1.

        At 10:33 a.m. on April 16, the SEC issued its press release concerning its filing of
.the complaint against Goldman Sachs. April 30, 2010 SEC.gov Press Release webpage,
 attached as Exhibit 38.

        After the Goldman action was publicly announced, Davis wrote in an e-mail to a
Senator's chief of staff, "Do you know how hard I was . my tongue yesterday?"
April 16, 2010 E-mail from Julie Davis to                      attached as Exhibit 119.
The chief of staff responded, "You are the Sphinx!" !d. Davis testified that this referred
to a conversation she had had with the Senator's chief of staff on April 15 in which the

                                                   52 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

chief of staff wanted to complain to Khuzami and Reisner that the SEC had not brought
any big cases, yet Davis did not divulge the SEC's imminent action against Goldman.
Davis Testimony Tr. at 25-26.

        On April 17, in reaction to a press inquiry concerning suspicions that the timing
of the Goldman action was coordinated with the White House, Khuzami e-mailed Nester,
Reisner, Marlin and Cohen:

                 For the record, the timing was based on when we were
                 ready to go (having previously pulled the case from the
                 calendar a day or two before a closed meeting for further
                 investigation) and when we had 5 commissioners - we
                 learned a month ago that 4114 was the only date around a
                 few week span that that was the case.

April 17, 2010 E-mail from Robert Khuzami to John Nester and Lorin Reisner, attached
as Exhibit 120. 16 Cohen responded to this e-mail, "As the person responsible for the
calendaring, that is not only true but documented. So, someone can feel very comfortable
that there is literally evidence to demonstrate the timing of this was not politically
motivated." !d.

         B. 	    The SEC's Action Was Released on the Same Day as the OIG's
                 Report Concerning the SEC's Response to Concerns Regarding
                 Robert Allen Stanford's Alleged Ponzi Scheme

        At 1:57 p.m. on April 16, a few hours after the SEC filed its action against
Goldman, the SEC publicly released a redacted version of the OIG Stanford Report,
which contained criticisms of the SEC's response to concerns and allegations that Robert
Allen Stanford's companies were conducting a fraudulent scheme. April 16, 2010
E-Mail from SEC NEWS, attached as Exhibit 121. In part because of coverage of the
SEC's Goldman action, press coverage of the OIG Stanford Report was limited. See,
e.g., The SEC's Impeccable Timing, The Wall Street Journal, April 20, 2010, attached as
Exhibit 122.

        Individuals both within and outside of the SEC have noted the suspicious timing
of the SEC's announcement of the Goldman action and the Stanford matter on the same
day. Friestad wrote in an April 19, 2010 e-mail:

                 I'm hearing that the Chairman's office is denying that there
                 was any connection between the decision to file the case on
                 Friday and the decision to release the Stanford IG report the
                 same day. They had better be careful, because they may

16
         Muoio testified that it was his understanding that, although it was not necessary to have all five
Commissioners present to vote on routine matters, it was preferable to have all five Commissioners present
to vote on Priority Cases. Muoio Testimony Tr. at Ill.

                                                    53
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                   get asked for e-mail, etc. from Congress or pursuant to a
                   FOIA request.

Exhibit 41. Friestad testified that he "assumed that it was not coincidental" that the OIG
Stanford Report and the Goldman action were made public on the same day, but that he
was not involved in decisions for either matter, and did not have knowledge that the
timing of the two events on the same day was intentional. Friestad Testimony Tr. at 22­
24.
        OGe Alty
                                                                            sent an e-mail to
 a personal friend on the day that the Goldman action was announced and the OIG
 Stanford Report was released, stating about these two matters, "What a coincidence that
 those two stories came out today. ;-)"
Friend
                  attached as Exhibit 123."
                                             A'i':'rh2010
                                                        E-mail from                    to
                                                  testified that his e-mail about the timing
 of the Stanford report and the Goldman action being a "coincidence" was based on purely
 his own speculation that the timing of the two releases "would be positive damage control
 for the Commission" in that the Goldman action and Stanford report were put out on the
 same ,_i,der for the Goldman action to drown out media coverage of the Stanford
 report"         Testimony Tr. at 41-42.                                                 .

        These suspicions were likely fueled by the recent history of the SEC releasing
OIG reports that criticized the agency on "slow" news days. As discussed in greater
detail in Section IV. D. above, the SEC has long held the opinion that Friday is a
traditionally slow news day and thus, did not file significant Enforcement actions on
Friday, to ensure that it would receive maximum news coverage. The SEC released the
OIG's 457-page Report ofInvestigation ("ROI") concerning the failure of the SEC to
uncover Bernard Madoffs Ponzi Scheme after 5:00 p.m. on September 4,2009, the
Friday before a three-day holiday weekend. David Scheer and Joshua Gallu, Madoff
Scam Reached Family ofSEC Official Whose Unit Got Tip, Bloomberg, September 7,
2009, attached as Exhibit 124, at 1. The SEC then released the hundreds of exhibits
supporting the OIG's ROI concerning Madofflate on Friday, October 30,2009. Sarah N.
Lynch, Madoff: SEC Agent was a "Blowhard," The Wall Street Journal, October 31,
2009, attached as Exhibit 125, at 1.

        In addition, the OIG ROI concerning the SEC's failure to vigorously pursue
Enforcement action against W. Holding Company, Inc., and Bear Stems & Co., Inc., was
made public on Friday, October 10,2008. SEC Faulted Over Bear Probe, The
Washington Post, October 11, 2008, attached as Exhibit 126. Consistent with this
pattern, on the same Friday that the OIG Stanford Report was publicly released and the
Goldman action was announced, April 16, 2010, the SEC also publicly released the
OIG's ROI concerning the SEC's failure to timely investigate allegations of financial
fraud at Metromedia International Group, Inc., which had been submitted to the SEC by
the OIG almost two months earlier. Peter Barnes, SEC Inspector General Slams Agency,
Again, Foxbusiness.com, May 3, 2010, attached as Exhibit 127, at 1.



                                                   54 

This document is subject to the provisions ofthe Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        The SEC has been criticized in the media for releasing OIG reports late in the day
on Friday, and Gillan, who was involved in the SEC's redaction of the OIG Stanford
Report prior to its public release, testified that she tried to get the OIG Stanford Report
"out as soon as possible, but not on a Friday afternoon... [b ]ecause [Inspector General
David Kotz] and I had a conversation about the fact that it's perceived very negatively in
the public, that if we release things on Friday afternoons, that we're trying to hide them."
See, e.g., Exhibit 124; Exhibit 127; Gillan Testimony Tr. at 17-18. On April 16, when
Marlin notified Gillan and others that the SEC's release ofthe OIG Stanford Report
would be delayed from 1:30 p.m. to 2:30 p.m. that afternoon, Gillan responded in an
e-mail: "Really? Are you comfortable wlhow that's going to be portrayed (i.e., they had
it ready but [held] it so it wouldn't make much news)? [Inspector General David] Kotz
knows that the redacted version is prepared and ready to go out." April 16, 2010 E-mail
from Kayla Gillan to Myron Marlin, attached as Exhibit 128.

        In addition, as discussed in Sections IV. D. and V. A. above, and Section V. C.
below, we have found that the decision on the timing of the press release concerning the
filing of Goldman complaint was based at least partially upon maximizing press coverage
and that ensuring positive press coverage was a consideration in deciding when to file
and announce cases. See Calande Testimony Tr. at 32 ("[W]e do want to manage the
press attention to our cases, because that is part of deterring securities law violations. . ..
[I]fwe bring a good case we certainly want to get good publicity for it, and we're careful
about how we announce them, and where and when ... "); Cohen Testimony Tr. at 84-85
"[O]ur goal is always to get our enforcement message out widely."); Scarboro Testimony
Tr. at 31 ("[T]here's a deterrent value in what we do ... there are certain days of the week
that you're likely to get more coverage than others."); Lench Testimony Tr. at 60 ("[W]e
have to make the [enforcement actions] that we do pursue and then decide to file count.
             that the public message is an important part of what the Commission does.");
          Testimony Tr. at 12-13; Khuzami Testimony Tr. at 86.

        Moreover, as discussed in Section V. A. above, at least some of the SEC staffwas
aware of the possible public impact of bringing the Goldman action and releasing the
OIG Stanford Report on the same day, as Marlin testified that he was concerned that the
SEC would be criticized for announcing both items on the same day. Marlin Testimony
Tr. at 27-28.

        Notwithstanding these suspicions, the OIG did not locate any concrete and
tangible evidence in e-mails or in testimony that the filing of the Goldman report was
specifically delayed to coincide with the issuance of the OIG Stanford Report. 17 After
the OIG submitted the OIG Stanford Report to the Chairman on April 1, 2010, the SEC
staff undertook the process of redacting portions of the report before its public release, a
task that appeared to proceed independently of the timing of the SEC's Goldman action.

17
         Because the allegations prompting this OIG inquiry concerned the timing ofthe filing ofthe
SEC's action against Goldman, this OIG investigation focused on decisions related to the timing of the
release of the OIG Stanford Report to the degree that they impacted the timing of the filing of the action
against Goldman.

                                                     55 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General. .
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

April 1,2010 E-mail from Kayla Gillan to Mary Schapiro, attached as Exhibit 129.
Gillan recommended in a March 26,2010 e-mail to "promptly work to redact as
necessary and publicly release," and on April 7, she reiterated that "Mary [Schapiro] is
quite anxious to get this report released as soon as possible," and "no later than next Wed,
April 14 (sooner would even be better)." March 26, 2010 E-mail from Kayla Gillan to
Mary Schapiro, attached as Exhibit 13Q; 1fl'~010 E-mail from K3yla Gillan to
OGCAtty
                  attached as Exhibit 131.·'        esponded in an e-mail, "It will be tight,
but I believe that we can accommodate this goal or corne very close (i.e., Thursday, April
 15th or Friday, April 16th)." Jd.

        On April9, _         sent an e-mail to all of the counsels to the Commissioners
informing them that the Office of the General Counsel planned to circulate a seriatim
Action Memorandum on Monday, April 12, seeking COmmijj"r,iiiililY April 14 to
release the OIG Stanford Report. April 9, 2010 E-mail from·'                     to
COMMISSION COUNSELS, attached as Exhibit 132. On Monday, however,
notified all of the counsels to the Commissioners via e-mail that, due to further
consideration of certain redactions, the Action Memorandum would not be ready to
circulate until Tuesday, April 13. April 12, 2010 E-mail from                      to
COMMISSION COUNSELS, attached as Exhibit 133. Marlin testified that, by April 13,
a decision had been made to postpone the release of the OIG Stanford Report from April
14 to April 16 due to issues concerning the redaction of the report, and that after that
point, the date of release for the OIG Stanford Report was "fixed" for Friday, April 16.
Marlin Testimony Tr. at 27-28. The Action Memorandum seeking Commission authority
to release the OIG Stanford Report was ultimately circulated to the Commissioners'
counsels on April 14, and was not signed by all five Commissioners until Friday
morning, April 16. April 14, 2010 E-mail from                        to Barry Walters,
attached as Exhibit 134; April 15, 2010 E-mail from                         Kayla Gillan and
Stephen Cohen, attached as Exhibit 135; April 16, 2                       Stephen Cohen to
Myron Marlin, attached as Exhibit 136.

       Khuzami testified that he was not aware of any discussion of the OIG Stanford
Report in connection with reasons why the Goldman action was filed on Friday, April 16.
Khuzami Testimony Tr. at 55. Cohen similarly testified that he never heard any
discussion about the OIG Stanford Report in relation to the timing of the filing of the
Goldman action. Cohen Testimony Tr. at 92. Lench testified that he did not recall
anybody telling him that there was an interest in having the Goldman case filed the same
day that the OIG Stanford Report was released. Lench Testimony Tr. at 40.

        Furthermore, as discussed in Section V. A. above, there was testimony that SEC
officials were not sure what the press impact would be of the filing of the Goldman case,
and some actually feared it would be partially negative. Lench Testimony Tr. at 42
                                                              but if it's a real high profile
case,                                            and it's not good for the enforcement
program."); Marlin Testimony Tr. at 21 ("we could be criticized for bringing such a
narrow case after a two-year investigation"); Cohen Testimony Tr. at 81. In addition, as
discussed in Section V. D. below, we found that there was nearly unanimous staff

                                                    56
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

surprise at how much press coverage the filing of the Goldman case received, and there
was testimony that Khuzami was actually afraid the Stanford report would overshadow
the Goldman case. Schapiro Testimony Tr. at20-21; Cohen Testimony Tr. at 82;
_         Testimony Tr. at 52; _      Testimony Tr. at 79; Lench Testimony Tr. at 49,
69-70; Nisanci Testimony Tr. at 45; Spitler Testimony Tr. at 77; Henseler Testimony Tr.
at 51; Kelley Testimony Tr. at 33; Marlin Testimony Tr. at 25, 52.

         Accordingly, and as discussed in section V.A. above, the OIG has concluded that
the SEC's decision to file the action against Goldman on April 16 was driven primarily
by its desire to maximize press coverage by avoiding filing the action on the same day
that it announced its settlement of the Quadrangle matter. In addition, although we found
that the SEC has a history of releasing OIG reports critical of the agency on days that
could potentially result in less press coverage, we did not fmd evidence in this case
sufficient to establish that the SEC timed the Goldman filing intentionally or specifically
to overshadow press coverage of the Stanford report.

         C. 	    The Enforcement Staff Did Not Notify Goldman Sachs of Commission
                 Approval or Impending Action Until After Filing the Complaint in
                 Court

        Section B(15)(c) of Administrative Regulation SECR 18-2, Press Relations
Policies and Procedures, states, in part:

                 Every effort should be made to avoid the possibility that
                 defendants in an SEC enforcement action first learn of the
                 action when they read about it in the newspapers or when
                 they are called by a reporter for comment about the SEC's
                 complaint. The division, regional or district office
                 primarily responsible for the filing of a particular complaint
                 shall take all necessary steps to see that the defendants
                 and/or their counsel are given timely advice concerning the
                 action .

        .While Nester testified that the Office of Public Affairs circulates its press policy,
including SECR 18-2, to the Division of Enforcement staff on at least an annual basis,
two members of the Enforcement staff responsible for bringing the Goldman action
testified tri.were not aware of the provision quoted above. Nester Testimony Tr. at
110-111;           Testimony Tr. at 70-71; Muoio Testimony Tr. at 151-152.

         Muoio testified that on April 16, he left a message with the secretary for
Goldman's outside counsel, Richard Klapper of Sullivan & Cromwell LLC, to give
notice that the SEC had brought charges against Goldman and Tourre and that the SEC
had declined to charge the Goldman Manager. Muoio Testimony Tr. at 139. Muoio
testified that he left this message, "around the time we filed, on the morning of Friday,
April 16. ... I can't recall as I sit here whether or not it was a little before or a little after
[the SEC filed its action against Goldman]." Id. at 138.

                                                    57
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        Klapper testified that he was not notified by the SEC staff that the complaint was
going to be filed prior to the filing of its complaint against Goldman. Klapper Testimony
Tr. at 15. Telephone records for Klapper's telephone line at Sullivan & Cromwell LLC
indicate that the first call Klapper received from the SEC on April 16 came at 10:39 a.m.,
ten minutes after the SEC filed its complaint against Goldman and seven minutes after
the SEC issued its press release for the Goldman action. See August 9,2010 Letter from
Sharon Nelles to OIG Staff 2       attached as Exhibit 137.

         Klapper testified that, after learning of the SEC's action against Goldman, he
called Muoio and told him that "it was unprecedented, in my view it was contrary to
decades of SEC experience that they would file without calling and giving an opportunity
for the respondent to put a proposal on the table." Klapper Testimony Tr. at 28. Klapper
testified that Muoio responded in this telephone call that "he had been told to call my
office as soon as the action had been filed." Id. at 28-29.

        Lench testified that, prior to filing the SEC's action against Goldman, he had a
discussion with Muoio about whether to give Goldman notice that the staff was
authorized to file an action against Goldman. Lench Testimony Tr. at 55-56. Lench
testified that he was a proponent of giving notice to Goldman, because:

                 I had had a recent high-profile case where something
                 similar had happened, where we thought we were most
                 likely going to have to litigate a significant portion of the
                 case. And, after we got authority from the Commission, we
                 went back to the people who we were authorized [to file]
                 against, and we ended up ... settling the entire case.

!d. at 56. Lench testified that he thought it was "extremely unlikely that there would be
any settlement [with Goldman] ... But I do think, after you get authority, and they know
it's going to be filed, that sometimes can change a party's thinking." Id. Lench testified
that Muoio did not favor giving any advance notice to Goldman. !d. at 56-58. Lench
testified that, as a result of this disagreement, Lench and Muoio spoke with Reisner on
this issue, and the decision was made in that discussion with Reisner to notify Goldman
simultaneously with the filing of the complaint. !d. at 57-58. Lench testified:

                 I feel like the decision was that ... we would be filed at the
                 point when we let Goldman know. I don't want to say
                 absolutely, because the instructions maybe were a bit vague
                 as to exactly when we were going to notify counsel for
                 Goldman of this. I know it was going to be around the
                 time. But ... my impression coming out of [the discussion
                 with Reisner] was that we weren't going to be giving
                 Goldman a chance to put the brakes on filing.

!d. at 58-59.


                                                   58 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        Reisner, in contrast, testified that he specifically told Muoio that it was important
to give Goldman's counsel notice about the filing before it occurred, and that Muoio
should give Goldman's counsel this notice a short time before the filing. Reisner
Testimony Tr. at 82-85.

        Lench testified that it was his practice, and that of many people at the SEC, to
notify a defendant that the Commission had authorized the staff to file an action against
the defendant. Lench Testimony Tr. at 53. Lench testified that "the main reason why
you might want to do it is if you think there can be a settlement at the 11 th hour." !d.
Lench testified that, "from a programmatic standpoint, we need to enter into a certain
number ... of settlements, because you don't want to be litigating everything, assuming
that you can achieve the deterrence goals of the case.... Generally, you always look for
opportunities to settle." ld. at 54. Lench testified:

                 I have had matters where the people you're considering
                 bringing the case against ... want to ... pursue every
                 available avenue to get the case totally not authorized. So
                 they don't want to give any hint that there is any weakness
                 ... at that point. But after the Commission authorizes the
                 case, there is sometimes an opportunity, even with
                 somebody who has told you no, that [a settlement] could
                 happen.

!d. at 55.

        Friestad testified that it was a "general practice" of the SEC to inform defendants
that they're going to be charged before filing an action. Friestad Testimony Tr. at 17.
Friestad testified that, for cases that are not being coordinated with criminal authorities:

                 [W]here you've gone through the Wells process, someone's
                 put in a Wells submission, you're generally going to
                 provide the party with notice that the Commission has
                 essentially rejected their arguments in the Wells submission
                 and has approved the staffs recommendation, and that
                 we're planning to go ahead and bring the case. So
                 sometime between when the Commission authorizes the
                 case and when you would file the case you would call the
                 lawyers forthe parties and let them know that.

ld. When asked what the purpose of giving such notice is, Friestad testified:

                 [1]t depends. Some cases you know are going to be
                 litigated. Sometimes it's just a courtesy. In other cases,
                 there are close factual or legal issues involved, and the
                 party who made the Wells submission was hoping that their
                 arguments would prevail. But, you know, from experience,

                                                   59
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 that if those arguments, haven't been persuasive that they
                 might be interested in settling the case. And so it's a
                 chance to give them an opportunity to send those kinds of
                 signals ... before having a contested case filed against them.

!d. at 17-18.

        In an April 17 e-mail from McKown to Khuzami, McKown wrote, "[N]ormally
we do give counsel a heads up that we are filing because we usually want to settle. . .. I
would note that if [Goldman] had wanted the meeting their counsel dam well knew how
to ask for it and would have received it." April 17, 2010 E-mail from Joan McKown to
Robert Khuzami, attached as Exhibit 138.                     the Assistant Chief Litigation
Counsel originally assigned to the Goldman investigation, testified that it was "pretty
common" for the SEC to inform companies prior to filing an action, and that "I was
surprised and I felt a little bad myself that maybe somebody including me should have
         raised the issue of giving Goldman a little notice that we were going to file."
          estimony Tr. at 48.

        Scarboro testified that, in most instances, entities are aware that the SEC is
planning on bringing a filed action against them. Scarboro Testimony Tr. at 51-52.
Scarboro also testified that, although she was not involved in the decision to not give
notice to Goldman, she did not know anything about the facts of the Goldman matter that
would lead her to conclude that she would not have provided notice to Goldman. Id. at
50-51.

         Commissioner Casey testified that, prior to the SEC's filing of its action against
Goldman, she was not aware that the SEC had not informed Goldman in advance that it
intended to file an action against it. Casey Testimony Tr. at 10. Commissioner Casey
testified that the notification of defendants by the staff that the Commission had
authorized the staff to file an action "definitely had been the policy and practice
historically with respect to trying to resolve cases," and that the lack of notification to
Goldman "did appear to be a departure with how we have traditionally reached back out
to a company when those decisions have been taken." Id. at 12-13.

        Klapper testified:

                 [I]n my experience there is always a point, usually at the
                 very tail end of the investigation, where a point is made to
                 the respondent you should put something on the table
                 because we're about to move forward .... It was
                 completely contrary to my experience as to how the staff
                 handles these matters for them to file an action without first
                 calling and indicating that a decision had been made.

Klapper Testimony Tr. at 19,25-26.


                                                   60
This document is subject to the provisions of the Privacy Act of 1~74, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

       Cohen testified that it was "common practice" for the Enforcement staff to notify
a defendant after the Commission authorized the staff to file an action against the
defendant, but that "[i]t's certainly not a rule, and I've certainly been part of other cases
... where we didn't do that." Cohen Testimony Tr. at 97_98. 18

       Lench testified that one concern in notifying Goldman of Commission
authorization in advance of filing was that:

                  Goldman is a pretty sophisticated player. ... [T]hey're
                  good at the public relations game, and that ... [i]fyou know
                  that something is coming from the SEC, you can maybe
                  take certain actions to ... precondition the reporters about
                  the case, and maybe the coverage would not be as
                  favorable, from the SEC's standpoint.

!d. at 59-60.

         When asked why the SEC would be concerned about whether Goldman would
have an opportunity to shape the story about the SEC's action before it was filed, Lench
testified:

                  We are a relatively small group of attorneys conducting
                  these investigations over a massive market, and that we
                  need, when we bring an enforcement action, for there to be
                  this general aura of deterrence regarding our actions,
                  because there is no way we're going to identify all the
                  violations occurring out there. . .. So we have to make the
                  ones that we do pursue and then decide to file count. And I
                  think that the public message is an important part of what
                  the Commission does.

Lench Testimony Tr. at 60. McKown testified that the benefit of the SEC being the first
entity to announce a settlement is that:

                  [Y]ou can control the message that comes out with the
                  case. If a case is - or settlement is, pre-announced,
                  basically through a leak of some sort, either from defense
                  counselor some other source, the press is not as interested




18
          Muoio, in contrast to the other Enforcement witnesses who testified to having a past practice on
this topic, testified that his practice has always been, in an unsettled case in which there had been no
settlement negotiations, to notify counsel for the defendant around the time that the SEC filed the case.
Muoio Testimony Tr. at 140-141.


                                                     61
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 in the story because it's not as newsworthy, and so you
                 can't control how the message of the case is portrayed.

McKown Testimony Tr. at 39-40.

         Similarly, _          testified that the SEC's Office of Public Affairs prefers that the
first word about a new filing of an enforcement action by the SEC come from the SEC
itself, "[p]rimarily so that we kind of shape the way that the action in covered. ... [W]e
consider ourselves to be the best source of information about the action we're filing....
              ,u~,,,u,,,,,, rumors out in the marketplace and sometimes they're wildly off the
target.            Testimony Tr. at 17-18. Nester testified that, from a press perspective, if
the SEC is prepared to announce it and all other things being equal, he recommends that
SEC actions be filed and announced as soon as possible after Commission approval, to
preempt possible leaks of inaccurate information concerning the action. Nester
Testimony Tr. at 45-47. Nester further testified that the prevention ofleaks is "one of the
considerations in the filing of any high-profile action," and that the more information that
is leaked prior to the SEC's announcement of its action, "the more diluted the
Commission's message is going to be." !d. at 146-147.

      The day after the filing, reacting to the media raising the issue of notice to
Goldman, Reisner wrote in an e-mail to Nester and Khuzami:

                 The "blindsided" whining is baseless. There were multiple
                 opportunities for Goldman to pursue settlement. After the
                 Wells notice (oral and written) was sent, there was a formal
                 written Wells submission by Goldman - no mention of
                 pursuing settlement. Goldman's counsel had numerous
                 discussions with staff and a senior-level meeting in DC
                 with Rob and me. No mention of pursuing settlement by
                 Goldman. It was obvious that we were serious and planned
                 to pursue charges. We gave them prompt (virtually
                 simultaneous) notice of the filing of the complaint.

April 17, 2010 E-mail from Lorin Reisner to John Nester and Robert Khuzami, attached
as Exhibit 139.

        Khuzami wrote in another e-mail that day to Nester and Reisner concerning a
similar press inquiry: "We don't solicit settlements; they had every opportunity to raise
settlement from the point of the Wells notice until yesterday." April 17, 2010 E-mail
from Robert Khuzami to John Nester and Lorin Reisner, attached as Exhibit 140.

        On April 18, Khuzami wrote in an e-mail toNester.Reisner and others:

                 They had every opportunity to raise settlement and chose
                 not to. They attended a March mtg on [the Goldman
                 Manager] and the seriousness of the matter was quite

                                                   62
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 apparent. Every other counsel we have been involved with
                 in a Wells process knows it is serious and conveys an intent
                 to recommend charges and thus lets us know that
                 settlement is an option, or asks for that heads-up if charges
                 are imminent. ... I also don't like the internal dynamic that
                 is created when, at the end of every Wells process, we
                 reach out and say "do you want to settle?"

April 18, 2010 E-mail from Robert Khuzami to John Nester, attached as Exhibit 141.

         Khuzami testified that Goldman's counsel called him a day or two after the filing
of the Goldman complaint and "expressed displeasure about really not having a chance to
settle the case." Khuzami Testimony Tr. at 57. Khuzami testified that he responded to
Goldman's counsel that Goldman had many opportunities to settle the case. Id. Khuzami
testified that the SEC had no reason to believe that Goldman was interested in settling.
Id. at 59. Muoio testified that there had been no settlement discussions with Goldman
prior to the filing of the SEC's action against Goldman, and that, "given the way the
Wells Process went, it was clear that Goldman had no interest in settling the case."
Muoio Testimony Tr. at 141-142. Klapper acknowledged in testimony that there were
not any settlement discussions between Goldman and the SEC throughout the
investigation, and that the possibility of settlement was not discussed at any of the Wells
meetings relating to the Goldman investigation. Klapper Testimony Tr. at 8, 10-12. As
discussed in Section IV. below, however, Goldman initiated serious settlement
discussions with the SEC staff only a few days after the SEC filed its action against
Goldman.

        Khuzami testified that he did not think it was a good idea for it to become a
standard practice for the SEC to notify an entity when the Commission has authorized
filing an action against the entity, because:

                 [T]hen every defendant kind of knows they have a last
                 chance. . . . [T]hey can fight like hell and oppose, oppose,
                 and they're always going to have one last clear chance to
                 settle the case. I think appearance-wise it makes you
                 appear like you're maybe a little weak, don't believe in
                 your case. That's not to say that it's not appropriate in a lot
                 of cases, maybe most cases. But I would want the
                 opportunity not to have to do that.

Khuzami Testimony Tr. at 58-59. Similarly, Reisner testified that the decision whether to
give notice to an entity that the Commission had authorized an action should be evaluated
on a case-by-case basis, because, "[I]fpractitioners assumed that there was always going
to be an opportunity after Commission approval to come in and discuss and negotiate the
terms of a possible resolution, there would be a disincentive by counsel to negotiate and
reach settlements, resolutions, in advance of Commission authorization." Reisner
Testimony Tr. at 79.

                                                   63 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.



         Khuzami testified that he was not involved in or aware of any instructions given
to Muoio about when to notify Goldman. Khuzami Testimony Tr. at 64-66. Khuzami
testified that he assumed that the notification provision of SECR 18-2 had been complied
with in connection with the Goldman matter. Id. When asked if it would concern him if
in fact the Enforcement staff did not notify Goldman until after the action had been filed,
Khuzami testified, "Yeah. Look, it should happen. I suppose if someone got it five
                                                                                                          .,,:
minutes after rather than fifteen minutes before, I'm not sure that's of particular
consequence. But as a general matter, we should be adhering to the policy." Id. at 64-65.
The testimony continued:

                 Q. 	     Do you think generally it's a good idea in an 

                          enforcement case to notify a defendant prior to the 

                          case being filed, even if it's only a minute or two 

                          prior? 


                 A. 	     Yeah. Yeah. I do.

                 Q. 	     Because of the courtesy?

                 A. 	     Just a courtesy.... [W]e're not in the business of 

                          kind of gotcha, so I think that's right. 


!d.

        Reisner testified that, apart from emergency actions and actions in which there are
a concern about the dissipation of assets, "I think it is good policy and should be the
policy of the enforcement division, absent other countervailing reasons, to provide notice
[to a defendant] in advance of the filing of an action." Reisner Testimony Tr. at 88.

        Cohen testified that, in his opinion:

                 I actually don't think it's a good idea to have a practice that
                 parties get an opportunity to settle after the Commission
                 approves an action because I think that undermines the
                 Enforcement Division's ability to have honest discussions
                 about possible settlement in many instances beforehand....
                 [1]1' s like a second bite at the apple. If they know that they
                 get to first see if the Commission approves the action and
                 then they get a chance to settle, my personal opinion is that
                 doesn't send a particularly good message because it
                 undermines the ability of the Enforcement staff to have any
                 impetus to settle.... I think it's a discretionary issue. If
                 the staff believes that it would be fruitful to engage in
                 settlement discussions, I think it's a very good idea because
                 it's always ... better to settle and not use the litigation

                                                   64 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 resources if you can come to a good settlement. But as a
                 general policy matter, to have a rule that you always call a
                 company after and see if they want to settle, my personal
                 view is that that would be a bad policy.

Cohen Testimony Tr. at 99-100.

        The OIG found that the SEC staff did not comply with Administrative Regulation
SECR 18-2, because it did not make "every effort" to notify Goldman of the SEC's
action prior to filing the action. In light of the differing views expressed by Division of
Enforcement management as to whether notice should be given to a defendant in advance
of an SEC enforcement action, the OIG recommends that the staff consider whether this
regulation should be revised.

        D. 	     The SEC's Decision to File the Action Against Goldman Sachs During
                 Trading Hours With No Advance Notice to Goldman Sachs or NYSE
                 Regulation Resulted in Market Volatility and Concerned    • lOt
                 NYSE Regulation

        After the SEC filed its complaint against Goldman on April 16, Goldman's stock
price dropped 13 percent from the prior day's close, the biggest one-day decline in its
stock in over a year. Joshua Gallu & Christine Harper, Goldman Shares Tumble on SEC
Fraud Allegations, Bloomberg News, April 16, 2010, attached as Exhibit 142, at 1.
Implied volatility, a statistical measure that tends to rise along with uncertainty about the
direction of a stock's share price, rose above 54% after the SEC's announcement, the
highest it had been since July 2009. Deborah Levine, Goldman Sachs Bonds Suffer
Again on Fraud Fears, MarketWatch, April 19, 2010, attached as Exhibit 143, at 2. In
addition, the Dow Jones industrial average dropped more than 100 points after the
announcerhent, and the Chicago Board Options Exchange Volatility Index spiked 18.6%.
Miriam Marcus, Market Crumbles After Goldman Fraud Charges, Forbes.com, April 16,
2010, attached as Exhibit 144. Stocks of other fmancial companies declined as well.
Exhibit 142 at 3. 19

         Khuzami testified that the SEC staff was surprised by the significant market
impact upon the filing of the Goldman action. Khuzami Testimony Tr. at 66. Muoio
testified, "[N]obody on the staff level predicted the impact the filing of the [Goldman]
complaint would have on the market ... It was a shock I think to us alL" Muoio
Testimony Tr. at 148.            testified that "everyone, including Khuzami, was quite
shocked at the                s reaction ... that [the Goldman action] had an impact as
great as it did."        Testimony Tr. at 46-47.

       Chairman Schapiro testified that she was "quite surprised" at how much media
coverage the Goldman action received. Schapiro Testimony Tr. at 20-21. Cohen

19
         For example, the stock of Bank of America Corp. and JPMorgan Chase & Co. each lost over four
percent. Exhibit 142 at 3.

                                                   65
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

testified that he and others at the SEC were surprised at the attention given to the
Goldman case once it was announced. Cohen Testimony Tr. at 82. Many other
witnesses in this investigation testified that they w e r a d or "shocked" at the extent
of the media attention given to the Goldman action.              Testimony Tr. at 52;
_         Testimony Tr. at 79; Lench Testimony Tr. at 49,69-70; Nisanci Testimony Tr. at
45; Spitler Testimony Tr. at 77; Henseler Testimony Tr. at 51; Kelley Testimony Tr. at
33; Marlin Testimony Tr. at 52.

                                    ofNYSE Regulation, Inc. (,'NYSE Reg"), stated in an
interview with OIG that on April 16 at approximately 10:45 a.m., he learned from a
colleague at NYSE Reg that the SEC had filed an action against Goldman. l1li .
Interview Memorandum at 2. Iii!       stated that NYSE Reg called Goldman to fmd out
more details, and Goldman informed NYSE Reg that Goldman had received no advance
notice that a complaint filing was imminent. !d. ...,           that he attempted to call
Reisner at this time, because Reisner was listed as a contact on the SEC's press release
for this action. !d. IIIIstated that he was unable to reach Reisner, and that he either
left a message with Reisner's administrative assistant or a voicemail for Reisner to call
him. ld.

                                                                Goldman was filed, .wrote to


                 I know you spoke earlier t~ but I just
                 wanted to follow up to get your thoughts on whether it
                 might be useful for the Exchange to have any follow up
                 conversations with either Enforcement or the Office of
                 Public Affairs at the SEC about how we can minimize the
                 impact of announcements on market volatility.
                                                   ENF Supv 1
April 16,2010E-mailfrom_to                                              attached as Exhibit 145.

        _            testified that he then had a telephone conversation . • ..,         in which
lIIIexpressed, "concerns about the intra-day release by the Commission of the
Goldman matter because, in his opinion -- which I didn't disagree with - [the SEC action
 against Goldman] caused or may have added to excess volatility in
doing an intra-day release of an enforcement case of this magnitude."
                                                                               thjfi11.ce
                                                                                 .

                                                                                            by

Testimony Tr. at 16. _testified that~was concerned both about the 

volatility effect on the price of Goldman's stock and about the broader market impact 

from an SEC action against a major                 in the financial industry. !d. at 17. 

_estified that he agreed with • .., ~                          ld. _stated t h a t _ 

indicated in this phone call
about this issue. • ..,
                                tha'W'.    should speak to someone more senior at the SEC 

                                       Memorandum at 2. 


       After his telephone conversation                    then wrote in an e-mail to
Reisner: "I just got off the phone with                       the New York Stock
Exchange. He was seeking someone to discuss the SEC policies of press releases and the

                                                   66 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

impact ofthese on u.s. Marketplaces. I provided him with your contact information."
Exhibit 145. Reisner forwarded this e-mail to Khuzami and Cohen, and Cohen then
forwarded these e-mails to Nisanci, Delfin, and Marlin, with the message, "Let's
discuss." ld. Nester testified that he recalled Reisner expressing to Cohen that the SEC
should discuss the issue raised by.with the NYSE. Nester Testimony Tr. at 114­
115.

       • ...   also called _ .                     of the SEC's Office of Public
Affairs, that day. 't'"eInterview Memorandum at 2. _      then sent an e-mail to
Reisner stating that he spoke    • ...

                          wants to talk with you and whoever else might be
                 appropriate about the fact that the Goldman case has
                 demonstrated that our enforcement actions can sometimes
                 be market-moving. He and his staffwere taken by surprise
                 when they heard on the TV that there was a conference call
                 going on about a major action against Goldman. ... He
                 would like to discuss ways the SEC can work with NYSE
                 to ensure that market-moving news involving SEC
                 enforcement actions might be handled more along the lines


APril_ 0 E-mail
also
                          from_
                 that the NYSE handles this sort of thing in other contexts.


               estimony Tr. at 26.
                                               to   Lorin Reisner, attached as Exhibit 146. See


      . .stated that Reisner never returned • ...     telephone call from the morning
of April 16, and that neither Reisner
concerning the matters he raised with .
                                           nlff;!1
                                             else at the SEC got back to him
                                            and _         . .Interview
Memorandum at 2-3.

       Khuzami testified that he recalled NYSE Reg's contact with the SEC on this issue
and some subsequent internal discussion at the SEC about whether the SEC could give .
advance notice to the NYSE before filing an action. Khuzami Testimony Tr. at 66-67.
Khuzami testified that there was potentially a confidentiality concern in notifying NYSE
Reg, and that:

                 [W]e thought that this kind of market impact was
                 sufficiently rare that I didn't know that we needed
                 necessarily to adopt a broad policy in this approach. So I
                 think it just kind of -- I don't remember it actually going
                 anywhere. I don't think any commitments were made or
                 policies passed.

ld. at 67.



                                                     67 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

        Khuzami testified that he consulted with an individual in the Division of Trading
and Markets concerning whether to notify the NYSE before announcing the proposed
settlement with Goldman in July. !d. at 68. Khuzami testified that he and the individual
in the Division of Trading and Markets decided not to provide advance notice to the
NYSE, because they had no reason to believe that the settlement would have an impact
on the securities market, and they believed that notice should be limited to other
regulators who had an interest in the matter. Id. at 68-69. 20 Khuzami testified that he
informed Chairman Schapiro that the SEC staff was not going to notify the NYSE in
advance of announcing the proposed Goldman settlement. !d. at 69.

                       that NYSE Reg considers whether to halt trading in the securities of
a listed company when material news concerning that company is being disseminated.
• ...             Memorandum at 1. • ...             that NYSE Reg does not want trading
in a company's securities to occur as the news is being disseminated for that company.
Id. ....          that NYSE Reg likes to have trading in a company's stock halt from the
point in time when nobody knows the news about the company, to a point when
everybody knows the news, so that people who get the news early are not able to sell
their stock earlier than those who did not get the news early. Id. He stated that a halt
would typically last as long as it takes for the news about the company to be disseminated
and absorbed. !d. He stated this process often takes less than fifteen minutes. !d. He
stated that once it is clear that the media has put out the entirety of the press release
containing the news about the company, NYSE Reg will allow trading to resume in the
company's securities. Id. If there is an imbalance in the amount of buyers in comparison
to the amount of sellers for the company's securities, NYSE Reg will wait until there is
an equilibrium to start trading again. Id.

                     that NYSE Reg tells listed companies that they should try their best
to announce material news outside of the trading day. !d. ....            that, if the
company needs to announce material news during the trading day, NYSE Reg asks for
advance notice of the news from the company so that NYSE Reg can determine if the
news is material and, thus, to halt trading at the appropriate time. Id. NYSE Rule
202.06(B) obligates companies listed on the NYSE to give advance notice of material
news concerning the              N ew York Stock Exchange Manual Section 2, attached
as Exhibit 147,at 7. ....           that, to his understanding, the SEC did not typically
give NYSE Reg advance notice of its actions. _           Interview Memorandum at 2.

         Lench testified that, after the SEC filed against Goldman, a senior officer in the
Office of Compliance Inspections and Examinations called Lench and "sensitized" Lench
to the issue of filing during trading hours. Lench Testimony Tr. at 71. Lench testified
that this senior officer wanted "consideration to be given in high-profile market-moving
types of cases, potentially to file it outside of trading hours because of the impact [the
Goldman action] had on the market that day." !d. Lench testified that the SEC has an

20
          Although Muoio testified that he understood the SEC to have given advance notice to the NYSE
prior to announcing the settlement with Goldman, this was not consistent with any of the other testimony in
this investigation. Muoio Testimony Tr. at 148-150.

                                                    68
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients ofthis report should not disseminate or copy it without the Inspector General's approval.

interest in not getting information out in a disruptive fashion. Id. Lench testified that, in
the future, to the extent he can, and all other things being equal, he will avoid filing a
high-profile matter during trading hours. Id. at 72.

       Friestad testified that he has informed the NYSE in advance of filing other
Enforcement actions:

                 [1]t's important ... so that they're not caught flat-footed ....
                 It's something that I've done many times before.... [1]f
                 it's something that I think is going to get a fair amount of
                 attention and scrutiny, that tends to be the types of factors 1
                 would consider in deciding to make that type of a call.

Friestad Testimony Tr. at 29-30.

        Chairman Schapiro testified that, going forward, the SEC should think through,
while considering the need for confidentiality, whether to inform the NYSE in advance of
filing an action in certain circumstances and allow the NYSE to use the trading halt
mechanism to maintain an orderly market. Schapiro Testimony Tr. at 25. Cohen
testified that it made good sense to think about notifying the NYSE in advance of an
action that might have significant market impact, but that he did not know all the
implications, so he would not say definitively that the SEC should do so in all instances.
Cohen Testimony Tr. at 108.

        Reisner testified that, looking back, "maybe we should have given more
consideration [to giving advance notice to NYSE] here, particularly in light of the press
reaction and the market reaction." Reisner Testimony Tr. at 96. Reisner testified that the
idea of notifying the NYSE in advance of filing an action should be considered, and that
he would want input from the Division of Trading and Markets in considering this issue.
!d. at 96-97. Reisner testified that confidentiality could be a countervailing consideration
in whether the SEC should give advance notice to the NYSE before filing an action. Id.
at 97. Muoio testified, "1 think in hindsight we probably shouid have given [the NYSE] a
heads-up [prior to filing the complaint against Goldman.]" Muoio Testimony Tr. at 148.

       _          testified that a halt in tradinT1,• •e time for information about an
SEC action to disseminate, limiting volatility.     .      Testimony Tr. at 22. When
asked if he was concerned about the volatility in the securities market that could be
caused by the announcement of an SEC action or settlement, Khuzami testified:

                 [T]hose are things 1'd rather not take into account. . ..
                 [T]hese decisions should be made based upon ... the
                 merits. But on the other hand you can't really ignore that.
                 You don't want to cause unnecessary harm or volatility. So




                                                   69
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before 

disclosure to third parties. No redaction has been performed by the Office of Inspector General. 

Recipients of this report should not disseminate or copy it without the Inspector General's approval. 


                      I guess I don't really have an answer as to a general
                      approach. I would look at it in particular circumstances.

Khuzami Testimony Tr. at 70.

         Several individuals, within and outside the SEC, testified that, Ifr;"'lble, the
SEC should take effort to file significant actions outside trading hours.       .
testified that he himself was a "huge proponent of off-hours announcements" for major
SEC action announcements. ~estimony Tr. at 17-18. _testified that
"it should definitely be a consideration of Enforcement" whether to file during trading
hours, stating that, in his opinion, "I just don't think we need to throw the excess noise in
the marketplace unless that's your goal." !d. at 34.
        eso Faculty
                        a member of the faculty of the Chicago Board Options
Exchange's Options Institute who has written several books about trading options, stated
in an interview with the OIG that announcing material information about a publicly
traded cOW'Nuring ~arket hours could lead to an "instantaneous ove.rreaction': in the
markets.      .    IntervIew Memorandum.                     that announcmg matenal
information after the close of market hours allows time for the market to absorb the
information and "establish a new equilibrium." Id.

         _stated that he personally thinks that it would be better fqr the SEC to file its
 lawsuits against companies listed on the NYSE outside NYSE trading hours, and that
 others outside the NYSE would agree with him. _Interview Memorandum at 3.
''''''.stated that there is "after-hours" trading from 4:00 a.m. to 8:30 a.m. and from 4:00
 p.m. to 8:00 p.m. on weekdays, but that there are fewer participants in the market during
 these hours, the market can be more volatile then, and people who trade           . these
 hours appreciate that there are bigger risks in trading at these times. !d.            opined
 that "the real solution to this" is to get a trading halt set up in advance. !d. • ...   stated
 that not all SEC actions are necessarily material, and that it can be a judgment call as to
 which actions are material, although the SEC's action against Goldman clearly was
 material. !d.

        When asked whether he thought that the effect on the market or Goldman's stock
should have been considered when the SEC decided to file the Goldman action during
trading hours, Reisner testified, "[Llooking back on the press reaction and the market
reaction, I think that ... had we known [then] what we know now about the level of
interest and reaction, additional consultation with trading and markets and others with
market expertise couldn't have been a bad thing." Reisner Testimony Tr. at 99.

        Cohen testified that it is worth thinking about the SEC filing actions outside
trading hours, but that he does not know if it would be a good or feasible blanket policy,
since courts are sometimes only open during market hours. Cohen Testimony Tr. at 138.
Cohen testified:



                                                   70
This document is subject to the provisions of th·e Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office oflnspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 [I]n a way, we don't think classically about the effect on
                 markets when we file actions because we're not looking to
                 influence ... we were intentionally neutral about that; they
                 were filed when they were filed. I think [the Goldman
                 action] is a unique circumstance that showed there can be
                 an effect on the market, and ... it's worth thinking about
                 the question of whether, in certain circumstances, we ought
                 to consider ... when it's appropriate to file an action.
!d. at 139.

       Although the OIG found nothing improper in the SEC staffs decision to file its
Goldman action during trading hours and to not give advance notice to NYSE Reg, the
OIG is recommending that the Division of Enforcement give further consideration to
whether, under certain circumstances, filing an action after trading hours or giving
advance notice of an action to NYSE Reg or another self-regulatory organization is
appropriate.


VI. 	   ON JULY 15, 2010, THE COMMISSION FILED AND ANNOUNCED A
        PROPOSED SETTLEMENT WITH GOLDMAN SACHS

         Settlement negotiations with Goldman began almost immediately after the SEC
filed its complaint against Goldman. On April 19, 2010, Khuzami wrote in an e-mail to
the Enforcement team: "Settlement possibilities have been raised; pIs come prepared to
think about terms." April 19, 2010 E-mail from Robert Khuzami to Asst Ch lit Cnsl 1
attached as Exhibit 148.

         Khuzami testified that, a few weeks prior to the July 15 settlement announcement,
Goldman made it clear to the SEC staff that it wanted the matter settled: (1) prior to July
19, when Goldman's answer to the SEC's complaint was due in the SEC's civil action
against Goldman; and (2) prior to July 20, when Goldman's quarterly earnings would be
announced and at which point Goldman would have to take and announce an accounting
reserve if no fmal settlement had been reached. Khuzami Testimony Tr. at 74-75.
Khuzami testified that, at that point, "everybody was of the view that if we're going to
get [the settlement] done it had to get done before those two dates." !d. at 74. Muoio
testified that there was an effort to reach a settlement with Goldman before Goldman's
earnings release date, at which point Goldman may have had to take an accounting
reserve and make a disclosure relating to the possible settlement. Muoio Testimony Tr.
at 145-146, 154-155. Lench similarly testified that the SEC wanted to have the
settlement with Goldman by mid-July because of Goldman's upcoming earnings call
from which "the reporters and the public would be able to glean what our settlement
number was,"· and because of Goldman's deadline to answer the complaint. Lench
Testimony Tr. at 78-79.

      Chairman Schapiro testified that that the timing of the settlement filing was
governed "a little bit" by Goldman's court deadline to answer the complaint and their

                                                    71 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

scheduled quarterly earnings announcement. Schapiro Testimony Tr. at 27-28. Cohen
similarly testified that the Enforcement staff wanted to file the proposed Goldman
settlement prior to Goldman's answer deadline and prior to Goldman's announcement of
its quarterly earnings, in which they would disclose that they needed to reserve $550
million for a potential settlement with the SEC. Cohen Testimony Tr. at 118-119.
Likewise, Nisanci testified that there was a concern expressed by Goldman in reaching a
settlement before their earnings announcement on July 20. Nisanci Testimony Tr. at 60.
Klapper also testified that Goldman wanted to reach a resolution of this SEC matter prior
to Goldman's July 20 earnings release. Klapper Testimony Tr. at 31.

        After continued settlement negotiations, on July 1,2010, the Enforcement staff
sent draft settlement papers to Goldman's counsel. July 1, 2010 E-mail from Karen
Seymour to Kenneth Lench, attached as Exhibit 149. An early draft, circulated within the
Enforcement Division by Muoio on July 2, of an Action Memorandum recommending
acceptance of Goldman's settlement offer indicated that the Commission should consider
the matter "on or before July 19, 2010, when [Goldman] must file a response to the
Commission's complaint and/or July 20, 2010, when [Goldman] is scheduled to release
~          ." Attachment to July 2, 2010 E-mail from Reid Muoio to Kenneth Lench and
 -.   i          attached as Exhibit 150, at ii.

        By early July, the SEC staffhad set a plan. to bring Goldman's settlement offer
before the Commission on Thursday, July 15. A July 8 e-mail from Lench to Reisner and
others, concerning issues to raise with Goldman's counsel in a telephone call that day,
stated: "Timing - agree on fmal papers by Monday, board approval before Commission
considers matter next Thursday." July 8, 2010 E-mail from Kenneth Lench to Lorin
Reisner, attached as Exhibit 151. Nester testified that on July 9 he learned that it was
"very likely" that a settlement offer from Goldman would be presented to the
Commission the following week. Nester Testimony Tr. at 122-123.

        The Enforcement staff circulated the Action Memorandum recommending
acceptance of Goldman's settlement offer to the Commissioners on July 12. July 12,
2010 E-mail from                       0 Commission Counsels, attached as Exhibit 152.
The fmal Action Memorandum, like earlier drafts, made clear that the staff sought a
Commission Meeting on this matter "on or before July 19, when [Goldman] must file a
response to the Commission's complaint and the day before [Goldman] is scheduled to
release earnings, which likely will trigger a disclosure by the Company of the settlement
amount." Attachment to July 12,2010 Reid Muoio E-mail to Robert Khuzami, attached
as Exhibit 153, at iii. Senior Enforcement staff held meetings with each Commissioner
prior to the July 15 Commission meeting to brief them on the proposed settlement with
Goldman. See July 12, 2010 E-mail fromlijE'               to Luis Aguilar andie.f• •
                attached as Exhibit 154; Reisner Testimony Tr. at 117; Cohen Testimony
Tr. at 121. Cohen testified that it was not unusual to bring a matter before the
Commission this quickly and that at least every week or two, a matter needs to be put on
the Commission Calendar in a very short time frame. Cohen Testimony Tr. at 118.
Commissioners Luis Aguilar, Walter and Paredes testified that they believed that they
had an adequate amount of time to review Goldman's settlement offer prior to voting on

                                                   72 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

whether to accept the settlement offer or not. Aguilar Testimony Tr. at 14; Walter
Testimony Tr. at 11; Paredes Testimony Tr. at 13.

         On July 14, the Enforcement Staff sent fmal versions of the settlement papers to
Goldman's counsel for signature. July 14, 2010 E-mail from ENF Staff Atty       0 Karen
Seymour, attached as Exhibit 155.
         Also on July 14, The Wall Street Journal published an article on its website
describing "discussions about a possible settlement to simultaneously resolve the fraud
lawsuit against Goldman and some of the agency's lower-profile probes of the Wall
Street fIrm's mortgage department." July 14,2010 E-mail from Stephen Cohen to Myron
Marlin, attached as Exhibit 156. Cohen remarked via e-mail to Marlin concerning this
article, "Guess they got fIrst crack at framing the story ..." !d. Khuzami testifIed that he
saw this article as coming from Goldman, and that he called Goldman's counsel to
express that he was unhappy about the article because it inaccurately gave the impression
that this settlement was also a settlement of several other SEC investigations of Goldman.
Khuzami Testimony Tr. at 80-83.

         Khuzami testifIed that one of the reasons that the SEC decided to file and
announce the Goldman settlement almost immediately after Commission approval was a
concern about leaks to the media such as those resulting in The Wall Street Journal
article. Khuzami Testimony Tr. at 84. Khuzami testifIed that it was critical that the
information being publicly released about an SEC action be accurate. !d. at 85. Lench
testifIed that the primary reason that the SEC decided to announce the settlement quickly
was "to beat leaks. . .. [T]he more time that went by between the Commission approving
it and filing the settlement, the more likely it was going to get out there." Lench
Testimony Tr. at 82. Calande testifIed that the SEC wants "to file an action very quickly
after signifIcant [internal Commission] action is taken, so that there cannot be leaks and
uneven information distribution." Calande Testimony Tr. at 51. Calande testifIed that
the SEC wants to fIrst reveal the information about a settlement rather than the
information fIrst being leaked in the news media, because the SEC wants the public
information about the settlement to be accurate. Id. at 51.

        Cohen similarly testifIed that one of the reasons that the SEC decided to announce
the settlement quickly on Thursday, July 15, rather than wait until the next day, was, "If
you wait until Friday and it leaks, then Goldman gets to control the story." Cohen
Testimony Tr. at 125-126. Nester testifIed that there was "absolutely" concern at the
SEC that Goldman would provide information to the media and spin the settlement in
Goldman's favor. Nester Testimony Tr. at 130-132.

        The Goldman settlement announcement coincided with the passage of the
fmancial regulatory reform bill in the Senate. Khuzami testifIed that there may have been
internal discussion at the SEC that the filing of the proposed Goldman settlement on the
same day that fInancial regulatory reform was approved by the Senate might cause people
to speculate that the timing between the two events was connected, even though it was
not. Khuzami Testimony Tr. at 93. Khuzami testifIed that the SEC decided to keep to its
schedule because it would have been inappropriate to delay the settlement because of this

                                                   73 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

concern. Id. Marlin testified that, shortly before the SEC was to announce the proposed
settlement with Goldman, he went to Chairman Schapiro's office to raise his concern that
the SEC would be perceived poorly by announcing the proposed Goldman settlement on
the same day that fmancial regulatory reform legislation passes in the Senate. Marlin
Testimony Tr. at 51.
        It was decided, however, to announce the settlement that day as originally
planned, because if the SEC held the Goldman settlement filing and announcement
another day, "people will then be able to say we held it because of reg reform." Id. at 51­
52. Nester testified that on July 14, he, Marlin, and Cohen discussed the likelihood of
criticism for announcing the Goldman settlement around the same time as the Senate vote
on financial regulatory reform legislation, but that "we can't not do what we have to do
because of something -:- and particularly when we can't control the events on the other
side." Nester Testimony Tr. at 141-142. Similarly, Gillan testified that there was
discussion that the timing of the proposed settlement filing would be criticized because of
the financial regulatory reform vote that same week, but that Chairman Schapiro stated,
"We don't time our cases or our settlements for anything external to our cases," and that,
in order to be consistent with the principle of not timing cases or settlements due to
external factors, the SEC could not move the date of the settlement filing. Gillan
Testimony Tr. at 36-37.

        Davis testified that she had a conversation with Spitler in which she noted that it
appeared that the Goldman settlement would be announced around the same time as the
Senate vote on fmancial regulatory reform legislation, and that Spitler responded that the
SEC would not change the timing of the settlement "simply to avoid appearances,
because then that would actually be changing because of political reasons." Davis
Testimony Tr. at 40. Kelley testified that she had a conversation with Spitler in which, "I
said we're going to get yelled at by Congress for this, and [Spitler] said that we can't stop
it, speed it up, or slow it down because that would be then wrong." Kelley Testimony Tr.
at 36.

       Khuzami and Klapper testified that, prior to the announcement of the proposed
Goldman settlement, Goldman expressed a desire to the SEC staff to not have the
settlement announced during trading hours. Khuzami Testimony Tr. at 69; Klapper
Testimony Tr. at 35. Khuzami testified that the SEC staff did not see a problem with
accommodating that concern. Khuzami Testimony Tr. at 69. Cohen testified that the
SEC decided to announce the proposed Goldman settlement after trading hours because:

                 [of] what we had observed with Goldman in April, and
                 quite frankly, the markets were watching Goldman,
                 including the litigation, closely.... So there was a concern
                 that bringing [the proposed settlement] after the close of the
                 markets would allow the information to be equally
                 distributed into the marketplace so that noboq.y would be
                 advantaged by the information.



                                                   74
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office ofInspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

Cohen Testimony Tr. at 112-113. Lench testified that the SEC staff decided to announce
the settlement after market hours because it              disruptive" to the securities
market. Lench Testimony Tr. at 72,85; see also •         Testimony Tr. at 59. Marlin
testified that Khuzami and Reisner informed him that    SEC would announce the
proposed settlement with Goldman after market hours because "we feel like we should do
that in this case." Marlin Testimony Tr. at 44-45.

         The Commission approved the settlement in a closed Executive Session on the
afternoon of~er Testimony Tr. at 145; July 15,2010 E-mail from Robert
Khuzami to _ _ _ attached as Exhibit 157. Pursuant to a timeline circulated by
N ester, at 3: 15 p.m., a few minutes after the Commission approved the settlement, the



_to_
SEC issued a press advisory announcing a press conference to be held at 4:45 p.m.,
without identifying the topic of the press conference. See July 15,2010 E-mail from
John Nester to Stephen Cohen, attached as Exhibit 158; July 15,2010 E-mail from _
                       attached as Exhibit 159. News articles noted an effect on the market
from this press advisory, which was released before NYSE trading hours closed at 4:30
p.m.. An Associated Press article that afternoon noted: "Stocks have had a late-day
turnaround on expectations that Goldman Sachs is settling civil fraud charges. The
Securities and Exchange Commission has scheduled a late-afternoon announcement. The
belief on trading desks was that the government and Goldman are settling charges." July
15,2010 E-mail from John McCoy to ENF-ALL TRIAL ATTORNEYS, attached as
Exhibit 160.

        At 4:28 p.m., as the NYSE trading day was ending, the SEC released its public
announcement of the settlement with Goldman. July 15,2010 E-mail from SEC NEWS,
attached as Exhibit 161. Muoio, in response to an e-mail forwarding an article about the
"amazing late day surge" in Goldman stock, wrote: "Goldman's stock price moved in
response to our press office announcing a 'significant event' after the close of trading
today." July 15,2010 E-mail from Reid Muoio to                       attached as Exhibit
162. Another attorney wrote in response to Muoio's e-mail: "They announced that prior
to the end of trading? Not too clever." !d.

         Spitler testified:

                 I was aware that they were timing ... the announcement of
                 the settlement after the market closed which did not make
                 sense to me because the press advisory I believe went out
                 before the market closed. ... [A]s soon as the press
                 advisory went out, the conclusion that everybody on TV
                 jumped to was that it would be a Goldman announcement.

Spitler Testimony Tr. at 74-75. Cohen testified:

                 Q.     And so, do you think, in hindsight, maybe that was
                 a mistake, and that even the announcement of the press


                                                   75
This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office of Inspector General.
Recipients of this report should not disseminate or copy it without the Inspector General's approval.

                 conference should be after the market if you were going to
                 try to deal with that issue of the effect on the stock?

                 A.      Yes, apparently. I think it was done - the
                 announcement of the press release was done very close to
                 the end-of-the-market close. My recollection is that people
                 didn't foresee that would have the effect that it did.

Cohen Testimony Tr. at 114.

        Although the OIG found nothing improper in the SEC staffs decision to issue a
press advisory prior to the closing of trading hours for the NYSE, the OIG is
recommending that the Division of Enforcement consider issuing any related press
advisories after trading hours close if the Division of Enforcement has decided to file and
announce an enforcement action after the closing of trading hours to minimize the effect
on the securities markets.


                                           CONCLUSION

        The OIG investigation did not find that the SEC's investigation of, or its action
against, Goldman was intended to influence, or was influenced by, fmancial regulatory
reform legislation. The OIG found that the investigation's procedural path and timing
was governed primarily by decisions relating to the case itself, as well as concern about
facts about the investigation's subject matter being publicized prior to the SEC filing an
action and concerns about press coverage and maintaining a relationship with the NYAG.

       The OIG also did not fmd that the settlement between the SEC and Goldman was
intended to influence, or was influenced by, financial regulatory reform legislation. The
settlement's timing was driven primarily by factors relating to the civil action against
Goldman and Goldman's quarterly earnings release.

         The OIG did not fmd that anyone at the SEC shared information about its
Goldman investigation with any journalists or members of the media prior to the filing of
its action against Goldman on April 16, 2010.

        The OIG found that the SEC staff did not fully comply with Administrative
Regulation SECR 18-2 by failing to notify Goldman of the SEC's action until after it had
filed the action.

         The OIG also found that this failure to give notice to Goldman in advance of
filing its action against Goldman, in combination with the failure to give notice to NYSE
Reg in advance of filing the action and the decision to file the action during market hours,
resulted in an increase in volatility in the securities markets on the day of the filing.



                                                   76 

This document is subject to the provisions of the Privacy Act of 1974, and may require redaction before
disclosure to third parties. No redaction has been performed by the Office oflnspector General.
Recipients or this report shollid not disserninnte or copy it without the Inspector General's approvnl.

The OIG is recommending that the Chairman and the Director of En i()rcement:

        (1)     Give consideration to, and then communicate to the Division of
        Enforcement staff, the circumstances, if any, under which the Division of
        Enforcement should give notice to NYSE Reg or other self~regulatory
        organizations in advance of filing an enforcement action in which the defendant
        has not been given notice that an action is imminent;

        (2)      Give consideration to, and then communicate to the Division of
        Enforcement staff, the circumstances, ifany, under which the Division of
        Enforcement should tile an enforcement action, and issue any related press
        releases or advisories, after the close oftrading hours for the exchange on which
        the s(;!curities ofthe defendant entity trades; and

        (3)    Give consideration as to whether Administrative Regulation SEeR 18-2
        should be revised, and to then communicate to the Division ofEnforcemellt staff
        whether and in what circumstances advance notice should be given to defendants
        in an Enforcement action;

                OIG Staff 2



Submitted:                                                    Date:




Concur:                                                       Date:




Approved:       ~             (//d..   <~~                   Date:
                 H. David Kotz          @




                                                   77 

